A Message from the
Inspector General
T
         wenty-five years ago, Congress passed the Inspector General Act, which formally
         recognized the need for independent voices for integrity, efficiency, and effective-
         ness within the federal government. Today, 57 offices of inspector general, includ-
ing our own, uphold the principles of the Act by ensuring efficiency and integrity in the
programs and operations of the agencies they oversee. I am pleased to be a part of this
important tradition as I present my first Semiannual Report as Inspector General of the
U.S. Postal Service.
     As I begin my term, I look forward to working with an institution that has been a vital
part of the American landscape for over 200 years. With over 750,000 career employees,
the Postal Service is a massive organization with complex operations and advanced
technology. Although the Postal Service faces a very challenging time in its history, it
continues to provide essential services to both businesses and the American public. The
challenges the Postal Service faces present challenges for our office, as well. In order to bet-
ter meet these challenges and add value to postal operations, we will be implementing a
number of changes in the coming months. One of these changes is the recent re-organiza-
tion of our audit function to mirror the Postal Service’s most critical issue areas.
     We stand committed to providing timely, accurate, and useful fact-based audits and
investigations to help the Postal Service achieve its goals and succeed in a rapidly-chang-
ing environment. We also stand ready to supplement the suggestions in the Transformation
Plan and the President’s Commission on the Postal Service in our efforts to improve effi-
ciency and effectiveness.
     I look forward to working with the Board of Governors and Postmaster General John
Potter as they formulate and execute their vision and strategies for the future. I also look
forward to forming an alliance with Chief Postal Inspector Lee Heath to carve out strate-
gies to better combat misconduct and fraud.
     This, our fourteenth Semiannual Report, sets forth the significant activities and
accomplishments of this office from April 1, 2003, through September 30, 2003. It details
our efforts to combat fraud, waste, abuse, and mismanagement within the Postal Service;
and fulfills our reporting requirement under the Inspector General Act.
     In this reporting period, the Office of Inspector General issued 273 audit reports
and 23 management advisory reports and other products. These efforts resulted in over
$250 million in questioned costs, unrecoverable costs, funds put to better use, and
potential additional revenue. In addition, we completed 145 investigations resulting in
19 arrests, 16 indictments, 13 convictions; and over $5 million in fines, restitutions, and
recoveries, of which over $1.6 million was returned to the Postal Service.
     I am appreciative of the support and enthusiasm I have received from the Postal
Service during my first few months as Inspector General. I am confident that together, we
can achieve our common goal: to ensure that the Postal Service continues to serve as a vital
and important communication link binding the nation together.
    Sincerely,




    David C. Williams
    September 30, 2003
PAGE 2   A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ............................7
PERFORMANCE REVIEWS ......................................................................................13
   ◆ Accepting and Processing Reviews ........................................................13
   ◆ Transportation and Delivery Reviews ....................................................14
   ◆ Marketing Reviews ..................................................................................16
FINANCIAL MANAGEMENT REVIEWS ..................................................................17
   ◆ Financial Opinion Audits ......................................................................17
   ◆ Facility Protective Reviews ....................................................................18
   ◆ Financial-Related Reviews and Investigations ......................................18
   ◆ Contracting and Facilities Reviews ........................................................20
TECHNOLOGY REVIEWS ......................................................................................23
   ◆ Developmental Reviews..........................................................................23
   ◆ Information Systems Reviews ................................................................24
   ◆ eCommerce Reviews ..............................................................................25
   ◆ Technical Crimes Unit Activities ..........................................................26
LABOR MANAGEMENT REVIEWS ........................................................................29
   ◆ Workplace Environment Reviews ..........................................................29
   ◆ Human Resource Process Reviews ........................................................30
   ◆ Special Inquiries Team Activities ..........................................................31
   ◆ Health Care Reviews ..............................................................................31
OVERSIGHT OF THE INSPECTION SERVICE ..........................................................33
   ◆ Oversight Reviews ..................................................................................33
CUSTOMER SERVICE ............................................................................................35
   ◆ External Communications ......................................................................35
GOALS AND STRATEGIES ....................................................................................41
ORGANIZATIONAL STRUCTURE ..........................................................................43
APPENDICES ........................................................................................................45
   Appendix A – Reports Issued to Postal Management..............................45
   Appendix B – Findings of Questioned Costs ............................................55
   Appendix C – Recommendations That Funds Be Put to Better Use ....57
   Appendix D – Reports with Significant Recommendations Pending
                     Corrective Actions ............................................................58
   Appendix E – Investigative Statistics ........................................................61
   Appendix F – Summary of Postal Service Investigative Activities
                     Under Title 39 USC § 3013..............................................62
   Appendix G – Closed Congressional and Board of Governors’
                     Inquiries ..............................................................................65

                                                                                                                        PAGE 3
PAGE 4
                                                    ◆     resolving workforce and workplace
EXECUTIVE SUMMARY




                                                                                                                  Executive Summary
                                                          issues; and


T
         his Executive Summary provides a syn-      ◆     balancing public service and
         opsis of the work reported from April 1,         commercial enterprise.
         2003, to September 30, 2003. This
                                                         This report often refers to “questioned
Semiannual Report addresses the major issues
                                                    costs” and other audit-related terms. See the
facing the Postal Service and the work per-
                                                    chart in the margin on the next page for a brief
formed by the OIG that helps improve postal
                                                    description of such terms.
operations. In this reporting period, the OIG
                                                         The following highlights the accomplish-
issued 273 audit reports and 23 management
                                                    ments of the OIG under the specific subject
advisory reports and other products. These
                                                    areas:
efforts resulted in over $250 million in ques-
tioned costs, unrecoverable costs, funds put to     (1) Performance focuses on the critical core
better use, and potential additional revenue. In    business processes needed to succeed in a com-
addition, the OIG completed 145 investiga-          petitive environment. The OIG conducted 14
tions resulting in 19 arrests, 16 indictments, 13   reviews in this area, including projects that will
convictions; and over $5 million in fines, resti-   help save the Postal Service over $180 million
tutions, and recoveries, of which over $1.6 mil-    in current and future years. Some examples
lion was returned to the Postal Service.            included:
     The OIG is responsible for conducting
                                                        ◆ Disclosing that the Postal Service’s spare
audits of Postal Service programs and opera-              parts inventory exceeded demand by a
tions. In addition, the OIG conducts investi-             projected $131 million, or 50 percent of
gations to prevent and detect fraud, waste,               the inventory.
abuse, and mismanagement affecting the
                                                        ◆ Revealing that the Postal Service could
Postal Service. Audits and investigations play
                                                          save approximately $30.5 million by
a vital role in helping the Postal Service make
                                                          canceling unnecessary trips between mail
improvements.                                             facilities.
     In this, the fourteenth Semiannual Report,
                                                        ◆ Identifying that a Postal Service mer-
the OIG’s work has been categorized into seven
                                                          chandise retail store did not perform as
subject areas: performance, financial manage-
                                                          intended, and cost the Postal Service
ment, technology, labor management, oversight
                                                          $8.3 million, or almost $1.2 million a
of the Postal Inspection Service, customer ser-
                                                          year, since the store’s inception in 1996.
vice, and organizational structure. These areas
include OIG work addressing the following           (2) Financial Management incorporates finan-
nine major management issues facing the Postal      cial opinion work, financial-related reviews,
Service:                                            and contracting and facilities reviews. The
                                                    OIG completed 258 audits and reviews that
◆   growing revenue, controlling costs, and         identified over $69.9 million in questioned and
    assuring accountability;                        unsupported costs in this area. In addition, the
◆   maintaining customer confidence;                OIG completed 109 investigations, which
◆   ensuring physical security and                  resulted in 11 convictions, 9 indictments, and
    safeguarding the mail;                          $2.3 million in fines, recoveries, and restitu-
                                                    tions, of which nearly $1.6 million was direct-
◆   managing acquisitions and contracts;
                                                    ed to the Postal Service. Some examples of
◆   controlling workers’ compensation               OIG work in this area included:
    costs;
                                                        ◆ Completing an investigation that result-
◆   leveraging technology;
                                                          ed in the conviction of a former postal
◆   improving the quality of information for              clerk for misappropriation of postal
    decision making and safeguarding the                  funds. The individual was sentenced to 3
    integrity and availability of information;            years probation and ordered to pay resti-
                                                          tution to the Postal Service.


                                                                                                         PAGE 5
                                          ◆ Working with the Defense Contract               ◆ Participating in a joint investigation that
                                            Audit Agency to complete 14 audits of             revealed a physician was submitting
                                            contracts that resulted in over $69.9             fraudulent workers’ compensation claims
                                            million in questioned costs.                      for services not provided. The physician’s
                                          ◆ Conducting an investigation that resulted         license was suspended pending the out-
                                            in a contractor agreeing to pay $2 million        come of judicial proceedings.
                                            to the government, $1.6 million of which      (5) Oversight of the Inspection Service During
                                            will go to the Postal Service, to settle      this reporting period, the OIG completed 5
                                            allegations that the contractor knowingly     oversight reviews, which included:
                                            provided the Postal Service with defec-
                                            tive mail sorting equipment.                    ◆ Revealing the Inspection Service’s con-
                                                                                              trol over firearms could be improved.
                                        (3) Technology encompasses reviews of devel-
                                                                                            ◆ Finding that because the Inspection Ser-
                                        opmental systems, computer security, and elec-
                                                                                              vice did not prepare a zero-based budget,
                                        tronic commerce; and Technical Crimes Unit
                                                                                              it could not be determined if require-
                                        activities. The OIG performed 14 reviews in
                                                                                              ments have been properly identified or
                                        this area. Some of the more significant OIG           developed for its $487.5 million FY 2003
                                        activities included:                                  budget. In addition, justifications support-
Definitions                               ◆ Establishing that certain Areas underuti-         ing $25.1 million of non-personnel bud-
                                            lized the Mailing Evaluation, Readability,        get line items totaling $36.8 million were
Questioned Costs - A cost that is
unnecessary, unreasonable, unsup-           and Lookup Instrument (MERLIN). If                not adequate.
ported, or an alleged violation of          utilization rates continue to remain below
law, regulation, contract, etc.
                                                                                          (6) Customer Service focuses on OIG efforts to
                                            target, the Postal Service could lose a       provide customer service, including support
Unsupported Costs - A cost that             substantial portion of the projected addi-
is not supported by adequate docu-                                                        functions to enhance service to internal cus-
mentation.                                  tional revenue and incur higher costs to
                                                                                          tomers and Hotline operations.
Funds Put to Better Use - Funds             process mail.
that could be used more efficiently       ◆ Recommending improvements to                  (7) Organizational Structure displays the
by implementing recommended                                                               OIG’s headquarters and field structure. This
actions.                                    strengthen and enhance the security of
                                            the Postal Service’s travel reimbursement     reporting period, the OIG:
Unrecoverable Costs - A cost that
perhaps should not have been                system.                                         ◆ Reorganized to better align and focus
incurred and is not recoverable.          ◆ Recommending improvements in the                  OIG operations on identifying improve-
Potential Additional Revenue -              security and reliability of a postal engi-        ment of Postal Service operations.
Amounts from revenue generating
functions such as retail sales, rent,       neering and development facility’s site         ◆ Initiated a strategic alliance with the
leases, or fees that were underpaid         and computer environment.                         Inspection Service to maximize investiga-
or not realized.                                                                              tive efforts focused on deterring and
                                        (4) Labor Management focuses on issues relat-
                                        ed to workplace environment, human                    detecting fraud and mismanagement.
                                        resources, and health care. During this report-     ◆ Reallocated mission support funds to
                                        ing period, the OIG conducted 5 reviews and           directly fund more direct mission activities.
                                        26 inquiries in this area, which included:
                                          ◆ Identifying a former Postal Service
                                            employee who received medical treat-
                                            ment for nonwork-related injuries total-
                                            ing approximately $350,000.
                                          ◆ Disclosing unsafe working conditions at a
                                            Connecticut postal facility. These condi-
                                            tions were potential violations of govern-
                                            ment safety and health requirements and
                                            increased the risk of injury and illness to
                                            Postal Service employees and customers.




                             PAGE 6     EXECUTIVE SUMMARY
                                                      to enact these recommendations into law.
MAJOR MANAGEMENT




                                                                                                                    Major Management Issues Facing the Postal Service
                                                           To assist Congress, the Governors, and
ISSUES FACING THE                                     postal management as they address these chal-
POSTAL SERVICE                                        lenges, the OIG has identified the following
                                                      major management issues:


T
         he Postal Service continues to face sig-
         nificant challenges. In light of declines    ◆   growing revenue, controlling costs, and
         in First-Class Mail revenue, it is identi-       assuring accountability;
fying and implementing long-term strategies to        ◆   maintaining customer confidence;
balance its growing universal service network
                                                      ◆   ensuring physical security and safeguard-
with its need to remain a viable commercial
                                                          ing the mail;
enterprise. The Postal Service believes that at
this pivotal time in its over 200-year history,       ◆   managing acquisitions and contracts;
every American’s right to send and receive mail       ◆   controlling workers’ compensation costs;
is at stake.                                          ◆   leveraging technology;
      The Postal Service details its challenges,
                                                      ◆   improving the quality of information for
and strategies to address them, in its April 2002
                                                          decision making and safeguarding the
Transformation Plan. Implementation of the
                                                          integrity and availability of information;
plan continues, as described in the recently
released FY 2004-2008 strategic plan. In the          ◆   resolving workforce and workplace issues;
strategic plan, the Postmaster General noted              and
that the recent enactment of the Postal Civil         ◆   balancing public service and commercial
Service Retirement System Funding Act of                  enterprise.
2003 will enable the Postal Service to reduce             We will continue to address these issues
debt levels and hold rates steady until 2006.         through our audits and investigations.
However, the strategic plan acknowledges, and
the OIG believes, that the gap between rev-           GROWING REVENUE,
enues, as well as expenses due to record declines     CONTROLLING COSTS, AND
                                                      ASSURING ACCOUNTABILITY
in First-Class Mail volume and growth in costs,
pose serious implications for the long-term                 Unlike most federal agencies, the Postal
financial health of the Postal Service.               Service relies primarily on its revenues, not
      The Administration and Congress also rec-       appropriations, to fund its operations. Without
ognize the significant challenges facing the          adequate revenues, the Postal Service would
Postal Service. In December 2002, President           have to reduce services, raise rates, or seek tax-
Bush established the President’s Commission on        payer subsidies. Thus, each year the Postal Ser-
the United States Postal Service to propose a         vice needs to meet the challenge of increasing
vision for the future of the Postal Service and to    its revenue to cover increasing costs or seek new
recommend legislative and administrative              ways to reduce costs.
reforms needed to ensure the viability of postal            Recent financial data continues to show
services. The Commission issued its final report      that the Postal Service’s financial situation is
on July 31, 2003. In Congress, Postal Service         improving. For FY 2003, the Postal Service
oversight has been raised to the full committee       expects a net income of approximately
level. In the House, a bipartisan Special Panel       $4 billion, compared to a net loss of
on Postal Reform and Oversight has been estab-        $676 million in FY 2002. The Postal Service
lished. In the face of these challenges, the Postal   attributes most of its projected net income to
Service needs to intensify its effort to identify     legislation passed in April 2003 that reduced
and implement strategies to balance its growing       Postal Service payments to the Civil Service
universal service network with its need to            Retirement System (CSRS) by about $6 billion
remain a viable commercial enterprise. And, as        over the next two years. It was estimated that
recognized in its strategic plan, the Postal Ser-     unless adjusted, the Postal Service would pay
vice must be ready to respond to the Commis-          over $105 billion more than was needed to fund
sion’s recommendations and Congress’ actions          CSRS retirement benefits. However, the Postal


                                                                                                           PAGE 7
         Service also attributes the positive net income       providing the Postal Service over $760 million
         to its continued cost reduction efforts, including    in appropriations to secure mail and protect the
         the reengineering and automating of its field         health and safety of employees and customers,
         accounting activities, which resulted in the          the Postal Service is still seeking approximately
         closing of 85 district accounting offices and         $800 million more in FY 2005 appropriations to
         residual work combined into its three Account-        pay for costs associated with the detection
         ing Service Centers, and postal rate increases        and/or prevention of another bioterrorism
         that took effect in June 2002. In addition, the       attack through the mail.
         Postal Service reduced its outstanding debt by              Finally, in a report issued in July 2003 by
         $3.8 billion at the end of FY 2003 to approxi-        the President’s Commission on the United
         mately $7.3 billion, a direct result of the retire-   States Postal Service, it was recommended that
         ment fund legislation noted earlier. The legisla-     the Postal Service voluntarily comply with
         tion requires the Postal Service to reduce its        applicable Securities and Exchange Commis-
         debt in FY 2004 as well.                              sion financial reporting requirements for public
               Legislation reducing the amount of retire-      corporations. The Commission noted that the
         ment fund contributions and cost controls have        Postal Service should be setting the standard for
         significantly helped the Postal Service’s finan-      financial transparency by which all other feder-
         cial position in FY 2003. The legislation pro-        al entities are judged. The Commission added
         vides that the CSRS cost savings must be              that while the Postal Service does, in many
         specifically used for liquidating outstanding         respects, conduct financial reporting over and
         debt and maintaining current postage rates            above what is required today of federal agencies,
         during FYs 2003 and 2004, and maintaining             it remains behind the level of disclosure required
         current postage rates through FY 2005. In any         of its corporate peers. It has been estimated that
         fiscal year after FY 2005, the legislation            the cost of compliance with the Securities and
         requires that the over-funded amount be con-          Exchange Commission requirements could
         sidered an operating expense of the Postal Ser-       reach millions of dollars. The costs include both
         vice and, until otherwise provided by law, held       internal costs (hiring legal and accounting per-
         in escrow. Additionally, the same legislation         sonnel knowledgeable of the applicable require-
         also transferred from the United States Treasury      ments) and external costs (required review of
         to the Postal Service the responsibility for fund-    the Securities and Exchange Commission filings
         ing the costs of retirement benefits that current     by an independent certified public accountant).
         and former Postal Service employees have                    It is crucial that the Postal Service contin-
         earned through military service. This has creat-      ue its efforts to increase productivity and control
         ed a direct cost transfer of $27 billion (retroac-    costs, and, more importantly, sustain mail
         tive to FY 1971) to the Postal Service. Because       service in the long term. The Postal Service
         this change departs from fundamental public           must also continue to improve its financial oper-
         policy, the legislation provides an opportunity       ations to ensure it is accountable to the public
         for the Postal Service, the Department of the         and is providing the best possible service at the
         Treasury, and the Office of Personnel Manage-         lowest cost. To address this issue, effective
         ment to submit proposals “detailing whether           October 1, 2003, the Postal Service replaced the
         and to what extent the Department of the Trea-        general ledger, implemented a monthly report-
         sury or the Postal Service should be responsible      ing cycle and realigned its internal reporting
         for the funding of benefits attributable to the       year with the government fiscal year. However,
         military service of current and former employees      these efforts must be augmented with other
         of the Postal Service.” These proposals are now       efforts, such as cost reduction, new revenue gen-
         under consideration.                                  eration, and productivity gains.
               Postal Service operations also continue to
                                                               MAINTAINING CUSTOMER
         be impacted because of the anthrax attacks that
                                                               CONFIDENCE
         occured in the fall of 2001. Although the
                                                                  The Postal Service views its access to the
         Administration and Congress responded by
                                                               American household as a unique asset it can


PAGE 8   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
leverage as it faces increasing competition. To      or any other improvement or expenditures, the
remain competitive, the Postal Service must be       threat of terrorists using the mail to carry out an
customer-focused and deliver the mail in a time-     attack can be reduced, but not eliminated. To
ly and accurate manner and at affordable rates.      better protect its employees and customers, the
Moreover, the Postal Service needs to adapt its      OIG believes the Postal Service must also
services and network to address changing cus-        reassess its facility designs, especially the ventila-
tomer needs and a changing mailing public. In        tion systems; maintenance practices; and emer-
today’s marketplace, customers have more             gency response and evacuation procedures.
choices about how they conduct postal transac-       Additionally, it must continually monitor its
tions, transmit messages, and deliver merchan-       spending criteria to ensure that funding is avail-
dise. The Postal Service is developing a more        able for critical life/safety projects.
flexible and integrated distribution and trans-
                                                     MANAGING ACQUISITIONS AND
portation network that is aligned with customer
                                                     CONTRACTS
and operational needs. Increasing customer con-
                                                          The Postal Service manages contracts with
fidence will be the key to maintaining current
                                                     commitment values totaling over $19.5 billion
business and growing new business.
                                                     annually for its goods, non-transportation ser-
     To effectively transition to a changing cus-
                                                     vices, and facilities-related services. The Postal
tomer base, the Postal Service must continue to
                                                     Service’s challenge in this area is to balance effi-
develop and provide products and services that
                                                     cient contracting practices with effective con-
retain relevance and value for customers with
                                                     trols to prevent fraud, waste, and abuse. Over
changing needs, identify efficient transportation
                                                     the past several years, the Postal Service has
and delivery modes, effectively schedule staff,
                                                     implemented the supply chain management
and maximize technological options.
                                                     philosophy and progressed toward adopting pur-
ENSURING PHYSICAL SECURITY                           chasing practices consistent with best commer-
AND SAFEGUARDING THE MAIL                            cial practices. Also, as outlined in the Transfor-
      With nearly 38,000 facilities and approxi-     mation Plan and recommended by the Presi-
mately 200 billion pieces of mail delivered each     dent’s Commission on the United States Postal
year, the Postal Service faces the enormous chal-    Service, the Postal Service plans to continue to
lenge of moving the mail efficiently and eco-        revise its purchasing regulations to reflect com-
nomically while effectively safeguarding postal      mercial best practices and move away from
employees, customers, and the mail. Historical-      stricter government regulations. While this
ly, the Postal Service has dealt with numerous       practice allows for certain efficiencies and cost
disasters, both natural and man-made, which          savings, adequate controls and cost control mea-
have interfered with mail delivery. The Octo-        sures must be established and enforced to
ber 2001 anthrax attacks through the mail            decrease the risk of loss in the procurement area.
exposed a new danger and led to a renewed            The Postal Service must ensure that its supply
emphasis on the security of the nation’s postal      chain management contracting practices are
system. The OIG has reviewed the Postal Ser-         consistent with applicable laws and regulations,
vice’s response to the bioterrorist attacks on the   and increase its efforts to ensure that postal con-
mail and plans to conduct future audits of the       tracts contain sufficient language to pursue
Postal Service’s response to the biohazard           action against contractors as necessary. It must
attacks.                                             also streamline purchasing practices to achieve
      The Postal Service has acted to ensure the     the significant planned cost reductions.
continued physical security and safety of the             The OIG has proposed numerous revisions
mail and sought new methods to detect biohaz-        to the Postal Service purchasing manual, includ-
ardous materials and sanitize the mail. The tech-    ing strengthening the examination of records
nological solutions include procuring new            clause, requiring contractors to have approved
equipment and changing processes that could          accounting systems, and increasing the use of
impact the efficiency of mail processing and         suspension and debarment authority. While
staffing requirements. Regardless of technology      many of the other changes the OIG has


                                                                                                              PAGE 9
          proposed to the purchasing manual to prevent          committed resources to help ensure better data
          or reduce fraud have been adopted, the OIG            management, track mail piece information, and
          remains concerned that these weaknesses in            improve communication between the Postal
          current postal processing procedures have not         Service and its customers. Additionally, the
          been adequately addressed. Unless these areas         Postal Service has undertaken an initiative to
          are addressed, the Postal Service will remain         upgrade its distributed computing environment
          unnecessarily exposed to fraud, waste, and abuse      by replacing obsolete technology and transform-
          in its purchasing operations. In September 2003,      ing its infrastructure by simplification, standard-
          the Postal Service agreed with the OIG’s recom-       ization, and modernization.
          mendations and agreed to take steps to imple-               The large size and diversity of the Postal
          ment these changes.                                   Service’s customer base presents technological
                                                                challenges and demands that solutions be sim-
          CONTROLLING WORKERS’
                                                                ple, easy to use, and competitive. To be success-
          COMPENSATION COSTS
                                                                ful, the Postal Service should also ensure that
               The Postal Service was the largest partici-
                                                                the corresponding cost savings projected from
          pant in the Federal Workers’ Compensation
                                                                technology investments are realized by efficient-
          Program and accounted for approximately
                                                                ly redeploying the resources replaced by the new
          $760 million, or over one-third, of the $2.2 bil-
                                                                technology. Decisions on technology invest-
          lion in total federal workers’ compensation cash
                                                                ments should continue to be scrutinized more
          outlays from claims for reporting year 2002. The
                                                                closely and be based on information that is cur-
          Postal Service’s workers’ compensation cash
                                                                rent, accurate, and reliable. The Postal Service
          outlays from claims have risen dramatically,
                                                                must also continue to address data integrity of its
          increasing by approximately 35 percent over the
                                                                systems to ensure accurate and informed deci-
          last 4 years. This is a considerable cost for an
                                                                sion making.
          agency that pays these costs out of operating rev-
          enues. Many factors have contributed to these         IMPROVING THE QUALITY OF
          increased costs, including the rising age of the      INFORMATION FOR DECISION
          Postal Service workforce; higher costs for med-       MAKING AND SAFEGUARDING
          ical equipment, medications, and medical treat-       THE INTEGRITY AND
          ments; overpayments and duplicate payments by
                                                                AVAILABILITY OF INFORMATION
          the program administrator; and increased inci-              Accurate measurement of mail delivery is
          dents of fraud by doctors and hospitals.              key to improving and sustaining service perfor-
                                                                mance. Reliable and objective data are also keys
          LEVERAGING TECHNOLOGY                                 to effective decision making. In addition, this
               The Postal Service depends greatly on            data must be properly safeguarded to ensure that
          technology to help process the mail in the most       it is not vulnerable to manipulation by unau-
          productive manner. Further, as the Postal Ser-        thorized individuals such as computer hackers or
          vice addresses biohazard threats, it is identifying   terrorist organizations.
          and deploying technology that best fits its oper-           Data justifying the need for major capital
          ational requirements, is compatible with exist-       expenditures must be reliable so that postal
          ing systems, and improves the security and safe-      management can decide whether to invest in
          ty of its processing operations.                      the project. In addition, reliable data are need-
               The Postal Service is working to leverage        ed to assess whether the project’s estimated and
          technology to improve its service, productivity,      actual return on investment is reasonable and
          and profitability. While it depends on technolo-      has been realized. In one instance, the OIG
          gy to deliver more than 660 million pieces of         found that the Postal Service did not consis-
          mail daily to over 141 million addresses, the         tently track cost data to assess whether expected
          Postal Service must continue to adapt to each         return on investment was achieved.
          new wave of technology quickly to maintain its              Furthermore, data supporting results
          competitive position in the market. To address        achieved must be objective so that stakehold-
          changing customer needs, the Postal Service has       ers, including postal management, Congress,



PAGE 10   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
and the public, receive the information they          throughout the Postal Service. Furthermore, the
need to make appropriate decisions related to         Postal Service’s Internet initiatives reinforced
their needs. The OIG has found that the               the need for increased security awareness and
Postal Service’s annual performance plan              compliance. Success in this area will depend on
could have provided more comparable, specif-          the level of protection afforded sites such as the
ic, and detailed information to measure how           Postal Service’s website and the programs oper-
well they achieved organizational goals.              ating on it. In addition, the Postal Service needs
     Changes in technology and the business           to continually protect customer information and
environment emphasize the need for providing          guarantee customer privacy.
timely, accessible, relevant, and accurate data to
                                                      RESOLVING WORKFORCE AND
Postal Service decision makers. Similarly, an
                                                      WORKPLACE ISSUES
effective system of accounting, financial, and
                                                           The Postal Service currently has more than
information controls is necessary for measuring
                                                      830,000 full and part-time employees and, for
financial performance. The general ledger sys-
                                                      FY 2002, their personnel compensation and
tem is the core of financial reporting systems.
                                                      benefits costs totaled over $51.5 billion. This
The Postal Service recognized limitations in its
                                                      accounts for more than three-quarters of the
general ledger system, and, beginning October 1,
                                                      Postal Service’s total operating expenses. Conse-
2003, moved to a commercial off-the-shelf sys-
                                                      quently, improving the work environment and
tem that will improve support capabilities, adapt
                                                      labor relations is key to maximizing the Postal
to changing business processes, and support
                                                      Service’s operational and financial performance.
financial reporting.
                                                      In an increasingly competitive environment,
     Also, given the importance of data quality
                                                      improving labor relations is essential if the
in setting postal rates and requests to Congress
                                                      Postal Service is to provide universal service at
for appropriations for ongoing costs related to
                                                      reasonable rates. However, past attempts to
the October 2001 anthrax attacks, the Postal
                                                      improve labor relations have not been as suc-
Service must continue demonstrating to Con-
                                                      cessful as planned.
gress, the Postal Rate Commission, stakeholders,
                                                           Future efforts to improve in these areas will
and the public that it is making progress in
                                                      only succeed if the Postal Service can effective-
improving the quality of its revenue, cost, and
                                                      ly partner with its employees and engage them
service measurements.
                                                      in a shared vision of success. This vision must
     Critical information needs to be not just
                                                      include eliminating any confrontational envi-
reliable, but also “safe.” Computers and elec-
                                                      ronment on the workroom floor and giving
tronic data are vital to the critical operations of
                                                      employees the freedom to raise concerns with-
the Postal Service. The same factors that bene-
                                                      out fear of retaliation. As the Postal Service pur-
fit operations—speed and accessibility—also
                                                      sues efforts to partner with employees, it must
make it possible for individuals and organiza-
                                                      also develop programs for recruiting, training,
tions to interfere with or eavesdrop on opera-
                                                      communicating, compensating, and rewarding
tions, possibly for purposes of fraud or sabotage.
                                                      employees consistent with the Postal Service’s
For example, terrorist organizations could use
                                                      vision for the future. In this regard, the Postal
computer networks to attack the federal infra-
                                                      Service needs to establish an effective way to
structure. Attacks that have already occurred on
                                                      link employees’ pay to their performance.
both government and private industry websites
reveal the damage a computer security breach          BALANCING PUBLIC SERVICE
can inflict on brand integrity and an organiza-       AND COMMERCIAL ENTERPRISE
tion’s revenue stream.                                    The Postal Reorganization Act of 1970
     The OIG’s work on computer security con-         requires the Postal Service to operate in a
tinues to identify vulnerabilities in the security    business-like manner supported by its own rev-
of computer applications and equipment. These         enues. As a public agency, it is charged with
vulnerabilities are being addressed by postal         binding the nation together with universal
management. However, there remains a contin-          mail service at affordable rates. Its government
uing need to emphasize computer security


                                                                                                            PAGE 11
          status carries certain advantages, such as a         According to the Postmaster General, postal
          monopoly on letter mail, exclusive access to         managers and employees have improved safety
          customers’ mailboxes, and a tax-free status.         and performance; indicators demonstrate that
          The universal service obligation requires a sig-     employee attitudes are improving; and indepen-
          nificant, costly infrastructure to deliver postal    dent surveys report very high levels of customer
          services, but unlike private corporations, the       satisfaction.
          Postal Service is bound by statutory constraints           Despite these achievements, without signif-
          that limit its ability to quickly adjust rates to    icant change to the existing legislative and
          respond to changing costs, negotiate with cus-       regulatory structure, the Postal Service will face
          tomers and employees, develop and price new          increasing difficulties in meeting its statutory
          products, close unprofitable outlets, and gener-     mission. As recognized in the President’s
          ate and invest profits. The Postal Service per-      Commission report, the dual role of the Postal
          forms a wide range of significant law enforce-       Service in balancing its public service obligation
          ment duties for the protection of the public,        with its need to remain commercially viable has
          even in cases that have no direct impact on the      become more challenging. These challenges are
          Postal Service. To continue to meet its mission      increased due to heightened competition in the
          of providing timely, reliable mail delivery to all   delivery and communication industries, espe-
          households, the Postal Service must continual-       cially with electronic communication steadily
          ly seek, develop and implement strategies to         eroding First-Class Mail volume. Congress is
          reduce costs, improve service, and generate          currently considering options for legislative
          revenue.                                             reform as recommended by the President’s
               The Transformation Plan outlines strategies     Commission and others.
          to address concerns raised by Congress, the Gen-           Until its statutory framework is changed,
          eral Accounting Office, and others. The Plan         the Postal Service must continue to work with-
          identifies short-term actions to take under its      in existing law to increase its accountability in
          existing authority and outlines long-term strate-    all aspects of operations to achieve profitability
          gies that require congressional action. Since the    in the near future. The Postal Service must also
          Plan was issued in April 2002, the Postal Service    continue to ensure that new products and ser-
          has earmarked cost reductions of about $5 billion    vices are self-sustaining and relate to its core
          by 2006, and is pursuing several initiatives.        business.




PAGE 12   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
                                                     efficient use of work-hours, postal management
PERFORMANCE




                                                                                                                     Performance Reviews
                                                     did not periodically evaluate staffing needs to
REVIEWS                                              improve productivity.
                                                           During the course of these audits, postal

T
        o deliver world-class service, businesses
        and government agencies must excel in        management agreed to aggressively reduce
        performing their core business processes.    work-hours in business mail entry units by
For the Postal Service, these core business          46,800 hours by the end of FY 2006. The OIG
processes and systems encompass accepting, pro-      calculated the financial impact of this reduction
cessing, transporting, and delivering the mail, as   in work-hours could produce an estimated cost
well as marketing postal products and services.      avoidance of over $16 million over a 10-year
The OIG has audit teams specializing in these        period. In both audits, the OIG obtained rapid
areas. During the past 6 months, the OIG com-        concurrence from postal management to reduce
pleted 14 reviews of the Postal Service’s perfor-    hours as planned and periodically reevaluate
mance of core business processes, some of which      staffing needs. Postal management’s actions
are highlighted below. The reviews identified        taken or planned should correct the issues iden-
opportunities to save over $180 million during       tified in the reports. (AO-AR-03-001 and
current and future years.                            AO-AR-03-002)

ACCEPTING AND PROCESSING                             POSTAL SERVICE COULD SAVE
REVIEWS                                              MONEY BY IMPROVING
      The Postal Service accepts more than 200       INVENTORY MANAGEMENT
billion pieces of mail per year in a variety of           The OIG audited spare parts inventory
ways, including mail collected from approxi-         management at maintenance stockrooms to
mately 295,000 collection points, as well as         determine whether inventory stock levels were
residential and business collection mailboxes.       appropriate. The audit disclosed that as of
Express Mail, First-Class Mail, Priority Mail,       November 2002, spare parts inventory levels in
periodicals, and Standard Mail are sorted at         the stockrooms exceeded demand by a projected
more than 440 mail processing facilities. In         $131 million, or 50 percent of the inventory.
order to ensure timely and accurate delivery of      The OIG found that if the Postal Service had
mail at affordable rates, accepting and process-     better managed this inventory, the $131 million
ing operations must improve work inefficiencies,     could have been used more efficiently.
reduce costs, increase effectiveness, and improve         The OIG recommended that Postal Service
service. In this regard, the Postal Service con-     management establish controls over reorder pro-
tinues to explore ways to apply new technology       cedures, require management approval for
to mail processing operations and to transform       excess quantities, develop a report to track
the Postal Service legacy network into a flexible    reorder trends, conduct annual reviews, program
processing and distribution system.                  the inventory management system to provide
      During the past 6 months, the OIG con-         analysis reports, identify excess parts, use excess
ducted work in the areas of accepting and pro-       parts before purchasing any new parts, and direct
cessing, some examples of which are highlighted      maintenance personnel to return excess parts to
below:                                               the Topeka Material Distribution Center for use
                                                     by other stockrooms.
REDUCTION OF WORK-HOURS                                   In addition, the OIG recommended that
NEEDED FOR BUSINESS MAIL
                                                     management develop guidelines and establish
ENTRY UNITS
                                                     requirements for designating parts as critical;
     In partnership with Postal Service manage-
                                                     require maintenance personnel to annually
ment, the OIG performed two audits of work
                                                     review parts for the proper critical designation;
performed by Postal Service employees in busi-
                                                     and reprogram the field inventory system to
ness mail entry units located in the Pacific Area.
                                                     automatically calculate levels for critical parts
The audits revealed that work-hours were exces-
                                                     needed. Postal management agreed with all of
sive and significant reductions were needed.
                                                     the recommendations, and actions taken or
Although Postal Service policies require the


                                                                                                           PAGE 13
                                        planned should correct the issues identified in       export. However, Postal Service policy does not
                                        the report. (AC-AR-03-007)                            allow officials to randomly open and examine
                                                                                              the contents of mail declared for export. Postal
                                        ENHANCED CARRIER
                                                                                              Service and Customs Service officials are work-
                                        ROUTE STANDARD MAIL
                                        WORKSHARING DISCOUNTS                                 ing together to establish a program to inspect
                                                                                              outbound mail, but the OIG concluded that
                                              As a result of a congressional inquiry at the
                                                                                              additional coordination efforts were needed
                                        San Antonio Processing and Distribution Cen-
                                                                                              between the Postal Service and the Department
                                        ter, the OIG audited Enhanced Carrier Route
                                                                                              of Commerce, Office of Export Enforcement.
                                        Standard Mail worksharing discounts. The audit
                                                                                                   The OIG made two recommendations to
                                        disclosed that Enhanced Carrier Route Standard
                                                                                              strengthen the Postal Service’s enforcement of
                                        Mail covered all of its volume variable costs in
                                                                                              export controls. Postal management’s comments
                                        FY 2001. However, the OIG found that the
                                                                                              are responsive to the OIG’s recommendations,
                                        Postal Service’s delivery point sequencing of
                                                                                              and actions taken and planned should correct
                                        Enhanced Carrier Route letter mail with desti-
                                                                                              the issues identified in the report.
                                        nation delivery unit discounts resulted in trans-
                                                                                              (AO-MA-03-001 (R))
                                        portation and handling inefficiencies and that
                                        internal controls over the acceptance of              TRANSPORTATION AND
                                        Enhanced Carrier Route Standard Mail needed           DELIVERY REVIEWS
                                        improvement.                                                Transportation and delivery of mail are
                                              The OIG recommended that postal man-            vital parts of the Postal Service’s mission of
                                        agement develop a rate case proposal to elimi-        binding the nation together by providing
                                        nate destination entry discounts for letters des-     prompt, reliable, efficient, and universal mail
                                        tinating at delivery units that receive delivery      delivery at affordable rates. The Postal Service
                                        point sequenced mail processed on delivery bar-       spends approximately $30 billion to transport
                                        code sorters. Postal management disagreed with        and deliver mail to 38,000 facilities and to
                                        this recommendation, but stated it has been           141 million addresses.
An OIG audit found that spare parts     reviewing the issue and expects to complete the             To transport and deliver the mail, the
inventory levels in stockrooms          review before the next Omnibus Rate Case.             Postal Service utilizes contractors and a fleet of
exceeded demand by a projected
                                        The OIG also found that internal controls over        over 208,000 owned vehicles and employs a
$131 million. If the Postal Service
had better managed this inventory,      the acceptance of Enhanced Carrier Route              combination of air, surface, rail, and water
the money could have been used          Standard Mail needed improvement and con-             modes. In addition, the Postal Service has an
more efficiently.                       siders postal management’s planned actions            agreement with Federal Express to transport
                                        responsive to the intent of the recommendation.       Express, Priority, and First-Class Mail. Over
                                        (AC-AR-03-006)                                        350,000 carriers deliver over 200 billion pieces
                                                                                              of mail—an average of about 1,420 pieces of
                                        ENFORCEMENT OF EXPORT                                 mail for every household and business.
                                        CONTROLS COULD BE
                                                                                                    The Postal Service is challenged to increase
                                        STRENGTHENED
                                                                                              efficiency in the transportation and delivery
                                             In response to a request from an intera-
                                                                                              area because mail volume has not grown suffi-
                                        gency group of inspectors general reviewing the
                                                                                              ciently in recent years to support the extension
                                        enforcement of export controls government-
                                                                                              of the delivery network needed to cover the
                                        wide, the OIG reviewed the Postal Service’s role
                                                                                              growth in the number of delivery points, which
                                        in enforcing export controls. The OIG evaluat-
                                                                                              grows by approximately 1.7 million each year.
                                        ed the Postal Service’s procedures, policies, reg-
                                                                                              During the past 6 months, the OIG issued 6
                                        ulations, and laws regarding export enforcement
                                                                                              transportation and delivery-related products,
                                        and found that the process for inspecting out-
                                                                                              which identified over $31 million in funds put
                                        bound mail could be strengthened. Export
                                                                                              to better use and over $1 million in unrecover-
                                        Administration regulations state that officials of
                                                                                              able costs. Some of this work is highlighted as
                                        the Postal Service, the Customs Service, and the
                                                                                              follows:
                                        Department of Commerce, Office of Export
                                        Enforcement, can inspect items declared for


                              PAGE 14   PERFORMANCE REVIEWS
POSTAL SERVICE COULD SAVE                            charges for fuel purchases exceeding tank capac-
MILLIONS BY CANCELING                                ity and exceeding the individual daily purchase
UNNECESSARY HIGHWAY                                  limit. The OIG also determined that managers
CONTRACT TRIPS                                       and supervisors did not properly reconcile Voy-
     At the request of the vice president,           ager Card transactions and that guidance provid-
Network Operations Management, the OIG               ed to users did not properly address segregation of
completed four audits of Highway Network             duties for card reconciliation. Finally, the OIG
Scheduling. The purpose of these audits was to       identified control weaknesses related to Voyager
identify highway contract trips that could be        Card personal identification number use at two
eliminated to reduce highway transportation          Postal Service districts visited. The OIG recom-      Voyager Cards are used like credit
                                                                                                           cards to fuel and maintain postal
costs. The reviews complemented the Postal           mended Postal Service officials provide nation-
                                                                                                           vehicles. An OIG audit revealed that
Service’s own breakthrough productivity initia-      wide guidance, policy, training, support, and         from September 2000 to March 2002,
tives in highway transportation, and reflected a     oversight necessary to protect the program from       the Postal Service incurred more than
strong cooperative effort between Postal Service     improper, fraudulent, or questionable purchases.      $1.1 million in unnecessary costs
Headquarters, the various Postal Service Areas,      Management agreed with the recommendation             because of employee misuse of the
                                                                                                           cards.
and the OIG. The audits revealed the Postal          but did not specifically address actions they
Service could save approximately $30.5 million       would take to correct issues the OIG identified.
by canceling unnecessary trips between mail          Postal management did not agree with the con-
processing facilities. Specifically, management      clusion that the Postal Service spent $1.1 million
in the Southwest, Western, Southeast, and East-      on improper purchases and that they could save
ern Areas could terminate 601 unnecessary con-       $1 million if the purchases were avoided. The
tracted trips without negatively affecting service   OIG and the Postal Service are working togeth-
by consolidating low mail volume trips. Postal       er to resolve these issues. (TD-AR-03-012)
Service managers agreed to eliminate 383 trips,
                                                     EARLY REPORTING TIMES FOR
but disagreed with elimination of the remaining
                                                     CARRIERS DEEMED INEFFECTIVE
218 trips, stating this would reduce operational
                                                           In response to a request from the Postmas-
flexibility. However, postal management agreed
                                                     ter General, the OIG audited Capital Metro
to reassess these remaining trips and will cancel
                                                     Area carrier productivity to determine whether
trips as necessary. (TD-AR-03-010,
                                                     letter carrier operations were effective and to
TD-AR-03-013, TD-AR-03-014, and
                                                     identify opportunities for cost savings. The audit
TD-AR-03-015)
                                                     revealed that in delivery units where letter carri-
NATIONAL ANALYSIS OF                                 ers reported at 7:00 a.m., 80 percent of the unit’s
VOYAGER CARD CONTROL                                 mail was not consistently distributed by the
WEAKNESSES                                           clerks to the carriers’ cases and available to them
     The OIG initiated an audit of the Postal        before they reported to work. This occurred
Service’s Voyager Card program as a result of        because postal management changed letter car-
concerns over the Voyager Card controls. Postal      riers’ reporting times from 8:00 a.m. to 7:00 a.m.
Service employees use the Voyager Card like a        without coordinating these new mail dispatch
credit card to fuel and maintain Postal Service      and delivery unit arrival times with processing
vehicles. The audit revealed that from Septem-       and distribution centers.
ber 2000 until March 2002, the Postal Service              Local supervisors explained the postmaster
incurred more than $1.1 million in unnecessary       verbally instructed them to make the change
costs because employees used the Voyager Card        because the postmaster wanted letter carriers to
to purchase food and premium fuel. Postal Ser-       complete their routes before dark or 5:00 p.m.
vice policy prohibits these types of purchases.      The OIG noted early reporting times wasted
     Of the $203 million in transactions the         carriers’ office time in the mornings and exposed
OIG examined, the audit also identified at least     the district to potentially unnecessary overtime
$42 million in questionable charges for miscella-    costs in the evenings. Finally, the OIG audit
neous purchases and multiple fuel purchases for      showed supervisors were not using the Delivery
the same vehicle on the same day as well as other    Operations Information System to manage their



                                                                                                            PAGE 15
          carrier schedules. As a result, the postal supervi-   recommendation to closely monitor inventory
          sors could not evaluate letter carrier scheduling     levels at the store through its closing and to
          or take corrective action. Postal management          develop a plan to transfer or dispose of any mer-
          was responsive to the OIG’s recommendations           chandise prior to closing. (OE-AR-03-005)
          and has planned actions to address the major
          issues identified in the report. (TD-AR-03-011)       POSTAL SERVICE’S ALTERNATIVES
                                                                TO MAIL RECOVERY CENTER
          MARKETING REVIEWS                                     AUCTIONS DEEMED PROPER
               The Postal Service operates in a globally        AND JUSTIFIED
          competitive environment and its ability to                  The OIG initiated this review following an
          maintain or increase its market share of the          audit of mail recovery center public auctions
          $900 billion mailing industry is essential to         through an Internet site. The OIG found the
          providing universal service at affordable rates.      Postal Service’s goal was to increase operational
          The marketing function’s core focus is to follow      efficiency, maximize revenue, and reduce costs
          six strategies set forth in support of the            by exploring alternative venues to sell undeliv-
          Transformation Plan. These strategies are to:         erable mail items. The audit revealed the Postal
          (1) increase revenue, (2) increase customer           Service used proper and justified business prac-
          retention, (3) service customers through appro-       tices for a pilot test by awarding the contract to
          priate channels, (4) use data to drive decisions      a specialized contractor. The OIG determined
          and make all plans measurable, (5) use pricing        the Postal Service increased its exposure and
          flexibility as a strategic tool, and (6) create       increased revenue prospects for selling undeliv-
          excitement. Some of the OIG’s work in this            erable mail items by having multiple venues for
          area is highlighted below:                            disposal.
                                                                      However, the audit also disclosed the Postal
          POSTAL SERVICE-RELATED
          MERCHANDISE STORE NOT                                 Service did not maintain proper oversight of
          PERFORMING AS WELL AS                                 revenue accounts. Due to the lack of integrity of
          INTENDED                                              revenue data, the OIG could not conclude
               An OIG audit of a Postal Service-related         whether the pilot test was cost-effective when
          merchandise retail store revealed the store did       compared to previous methods used to dispose of
          not perform as intended nor has it increased          undeliverable mail items. Although not in the
          profit for the Postal Service. Based on the OIG’s     original scope, the OIG found the contracting
          calculations, the retail portion of the store is      officer’s representative did not always involve
          operating at a loss. The OIG’s audit disclosed        the contracting officer in the decision making
          the retail portion of the store has cost the Postal   process and the Postal Service had inadequate
          Service $8.3 million since its inception in 1996,     oversight of contract performance.
          an average of almost $1.2 million a year. Fur-              Postal management agreed with all four
          thermore, the retail store did not comply with        contract performance recommendations made
          the Postal Service’s current objectives to only       by the OIG but disagreed that there was a lack
          sell merchandise directly related to traditional      of communication between the contracting offi-
          business operations. The OIG estimated that if        cer’s representative and the contracting officer.
          the Postal Service renewed and extended the           Postal management has either planned or
          current lease for an additional 2 years, it would     already taken corrective action to address the
          continue to lose money over this period. Postal       issues identified. (OE-AR-03-004)
          management agreed with the OIG’s recommen-
          dation to not renew the retail store lease. How-
          ever, postal management disagrees with the
          OIG’s calculations and believes that the store
          has actually generated positive net income.
          Postal Service managers agreed with the OIG’s




PAGE 16   PERFORMANCE REVIEWS
                                                       $66 billion in revenue and the recording and
FINANCIAL




                                                                                                                    Financial Management Reviews
                                                       expense of a similar amount each year. The OIG
MANAGEMENT                                             conducted audits at these Accounting Service
REVIEWS                                                Centers and headquarters and identified the
                                                       following areas for improvement:


T
         he Postal Service continues to respond
         to one of the most challenging financial        ◆ At the request of the U.S. Office of Per-
         periods in its history by focusing its plan       sonnel Management, the OIG reported
on reducing costs, increasing efficiency, and              on withholdings and contributions for
improving service. This effort resulted in the             health benefits, life insurance, retirement,
Postal Service ending FY 2002 with a loss that             and employee headcount data. Generally,
was almost $700 million below original projec-             the OIG was able to verify employee
tions, despite the effects of the recession and the        withholdings, employer contributions, life
terrorist attacks. The actions the Postal Service          insurance, and retirement. However, the
                                                           OIG identified one reportable issue
took in FY 2002 laid a foundation for savings in
                                                           regarding an incorrect insurance election
2003 and beyond, setting the stage for achieve-
                                                           that remained incorrect for approximately
ment of the Transformation Plan goal to reduce
                                                           3 months. The OIG report was provided
costs by $5 billion by the end of FY 2006. As              for information only and required no
evidence, the Postal Service’s projected net               management action. (FT-AR-03-012)
income of about $600 million in FY 2003 will be
                                                         ◆ During the OIG’s audit of the FY 2003
exceeded largely due to the Postal Civil Service
                                                          Postal Service Financial Statements at
Retirement System Funding Reform Act of
                                                          the St. Louis Information Technology
2003. Overall, it is estimated that the total pos-
                                                          and Accounting Service Center, of 6,468
itive impact on net income because of the Act             lease schedules analyzed, the OIG found
could be $3.3 billion in FY 2003.                         1,405 instances, totaling $3.5 million, in
     The Postal Service relies on strong finan-           which facilities service office personnel
cial management controls to maximize revenue              who entered real estate tax payment data
and minimize costs. In the past 6 months, the             were also authorized to approve tax pay-
OIG has completed 258 financial management                ments of $10,000 or less per annum.
reviews and 109 investigations. These efforts             Postal management agreed with the
identified over $69 million in questioned and             OIG’s recommendation and took imme-
unsupported costs. These projects add value to            diate action by issuing a policy memoran-
the Postal Service by identifying opportunities           dum requiring a second individual, other
for cost savings and improving financial man-             than the preparer, to approve all lease
agement, contracting, and facilities practices;           real estate tax payments.
and detecting and deterring fraud, waste, abuse,           The OIG also identified six schedules
and mismanagement.                                         related to lease payments in which the
                                                           preparer was also the approver. However,
FINANCIAL OPINION AUDITS                                   this is a significant improvement from
     The Postal Reorganization Act of 1970                 findings noted in prior audits. The OIG
requires an annual audit of the Postal Service’s           contacted the individuals responsible for
financial statements. The OIG conducts audits              these schedules and reiterated the need
in support of the Board of Governors indepen-              for segregation of duties over lease pay-
dent public accountant’s overall opinion on                ment schedules. The OIG commends the
those statements. These audits assess the integri-         Postal Service for the corrective actions
ty and reliability of the financial information            taken and makes no further recommenda-
contained in the Postal Service’s financial state-         tions at this time for segregation of duties
ments. The Information Technology and                      related to lease payments.
                                                           (FT-AR-03-013)
Accounting Service Centers in Eagan, Min-
nesota; St. Louis, Missouri; San Mateo, Califor-
nia; and at Postal Service Headquarters in
Washington, DC, oversee the collection of over


                                                                                                          PAGE 17
                                        FY 2003 FINANCIAL                                     FINANCIAL-RELATED REVIEWS
                                        INSTALLATION AUDITS                                   AND INVESTIGATIONS
                                              The OIG conducted audits at 200 Postal
                                                                                              COMBATING PURCHASING-
                                        Service facilities, and generally, financial infor-   RELATED FRAUD
                                        mation was reasonably and fairly represented in
                                                                                                   The OIG has initiated several efforts to
                                        the accounting records, and internal controls
                                                                                              focus investigations in the following major
                                        were in place and effective. However, at 179
                                                                                              postal expenditure areas: procurement of equip-
                                        facilities, the OIG identified minor problems
                                                                                              ment and services, transportation, and facilities.
                                        concerning non-compliance with Postal Service
                                                                                              Specifically, the OIG has focused its investiga-
                                        instructions and minor internal control weak-
                                                                                              tive efforts in the areas of frauds associated with
                                        nesses. At two facilities, the OIG found finan-
                                                                                              IMPAC cards, eVoyager cards, transportation
                                        cial transactions were not reasonably and fairly
                                                                                              contracts, the bulk fuel program, and common
                                        represented, and internal controls were not in
                                                                                              area maintenance agreements. In this reporting
                                        place and effective, resulting in a shortage of
                                                                                              period, OIG work in this area included:
                                        over $59,800 in the retail floor stock at one of
                                        these facilities. The OIG issued individual           ◆   An investigation resulting in the convic-
                                        reports to address these issues and will provide a        tion of a former postal clerk for misappro-
                                        summary report to postal management with rec-             priation of postal funds through the
                                        ommendations to address systemic issues. (For             improper use of an IMPAC card. The
                                                                                                  subject was sentenced to 3 years proba-
                                        specific reports see Appendix A, pages 45-54)
                                                                                                  tion and ordered to pay over $3,000 in
                                        FACILITY PROTECTIVE REVIEWS                               restitution to the Postal Service.
                                              The OIG has instituted a Facility Protec-       ◆   Two investigations concerning the misuse
                                        tive Review program to provide critical coverage          of the eVoyager card program. The first of
                                        to small Postal Service facilities. The benefits of       these investigations resulted in the
                                        the program include: providing a systematic               removal of a postal employee and the
                                        method for identifying and reviewing problems             recovery of $2,800. The second investiga-
                                        at local offices; suggesting valuable and timely          tion deals with the production and use of
                                        feedback to local and headquarters-level man-             counterfeit Postal Service eVoyager cards.
                                        agement; and identifying nationwide audits by             Five individuals have been arrested in
                                                                                                  this case and related investigations are
                                        developing trends of problems at local facilities.
The OIG seized this vehicle during an                                                             continuing.
                                        Areas of coverage during the protective audits
investigation into the misuse of the                                                          ◆   Investigations concerning transportation
                                        include asset accountability, employee and cus-
eVoyager card program.
                                        tomer service, information systems security, and          contracts that have resulted in the termi-
                                        compliance with laws and regulations. In the              nation of a highway contract for falsified
                                        past 6 months, the OIG completed 15 facility              documents. The scheme was discovered
                                                                                                  and the contractor was terminated prior
                                        protective reviews and found that internal con-
                                                                                                  to the payments being made. In another
                                        trols were generally in place and effective. How-
                                                                                                  case, a highway contractor, who had been
                                        ever, at those facilities, the OIG found minor
                                                                                                  convicted for defrauding the Postal Ser-
                                        issues relating to accountability, mail operations,
                                                                                                  vice, was debarred for 3 years. The sub-
                                        employee and customer service, revenue protec-            ject agreed to make restitution to the
                                        tion, expense minimization, information system            Postal Service of nearly $2,300. The
                                        security, oversight, and compliance with laws             OIG and the Inspection Service worked
                                        and regulations. For example, the OIG identi-             this investigation jointly.
                                        fied discrepancies between reported account
                                        balances and actual stamp stock and cash on           OIG INVESTIGATIVE EFFORTS
                                        hand; employee safety concerns related in and         PROTECT POSTAL SERVICE FROM
                                        around storage and work areas; insufficient           FALSE CLAIMS
                                        training on handling of hazardous materials;               The OIG assists the Postal Service in com-
                                        untimely information system access reviews; and       bating fraudulent claims by working with the
                                        inadequate control over building keys.                Postal Service Law Department and United


                              PAGE 18   FINANCIAL MANAGEMENT REVIEWS
States Attorney Offices to conduct investiga-         ing office provided assistance to the OIG to
tions into tort and indemnity claims filed against    identify the $91,000 in unnecessary utility taxes
the Postal Service.                                   paid. Upon the report’s issuance, the Postal Ser-
      As a result of one recent investigation, an     vice took immediate action to collect the
Oklahoma postal customer was sentenced to 10          improperly paid sales taxes. As a result, the state
months in jail and ordered to pay over $5,000 in      of Maryland agreed to refund the Postal Service
restitution to the Postal Service for submitting      over $82,000 in improperly paid taxes. The
false indemnity claims. The customer submitted        reduction in the amount reflects the disal-
claims for over $10,000, supported by altered         lowance of improperly paid taxes beyond the
sales receipts, for international mail that was       applicable statutes of limitation.
reported as damaged, missing its contents, or         (FT-AR-03-011)
undelivered.
                                                      IMPROVEMENTS NEEDED FOR
FY 2003 OBSERVATIONS OF                               POSTAL SERVICE’S GOVERNMENT
STATISTICAL TESTS FOR THE COST                        PERFORMANCE AND RESULTS
AND REVENUE ANALYSIS                                  ACT REPORTING
     The OIG performed cost and revenue                     An OIG audit disclosed the Postal Service
analysis audits in 21 districts and found that,       complied with the Government Performance
generally, the tests were conducted in accor-         and Results Act by providing plans that met the        The OIG assists the Postal Service in
                                                      Act’s requirements. However, the Postal Service        combating fraudulent claims.
dance with Postal Service procedures. However,
employees did not always adhere to policies for       could have improved its public accountability
sampling, equipment use, and data entry in 13         and the usefulness of the Fiscal Year 2003 Annu-
districts. The OIG issued individual reports to       al Performance Plan by providing more compa-
address these issues and will issue a summary         rable, specific, and detailed information to mea-
report providing postal management with rec-          sure organizational goal achievement. The OIG
ommendations to address systemic issues. (For         recommended and postal management agreed to
specific reports see Appendix A, pages 51-52)         make every effort to provide references, when
                                                      appropriate, to documents used in the develop-
UTILITY PAYMENTS NOT ALWAYS                           ment of act-related reports, and to consider
TIMELY OR PROPERLY MADE
                                                      incorporating additional goals, objectives, indi-
     An OIG audit disclosed that utilities, paid      cators, and targets, especially for those related to
at district accounting offices, generally were paid   the Transformation Plan initiatives; however,
accurately in accordance with Postal Service          they will limit the number of strategic goals in
policies and procedures. However, one district        order to focus on key goals.
accounting office did not always make timely                In addition, although postal management
payments, and another office paid unnecessary         agreed to provide a detailed explanation in
state and local taxes. As a result, the Postal Ser-   future documents when indicators and targets
vice incurred unnecessary late fees totaling over     were changed or eliminated, postal management
$36,700 and inappropriately paid about $91,000        believed additional labor relations indicators
in state and local taxes. The OIG recommended         were unnecessary at the strategic level at this
the Postal Service improve the timeliness of util-    time. The OIG noted in its report that it was not
ity payments, collect unnecessary payments of         the intent of its recommendation for postal
state and local taxes, and modify policies to         management to add, without consideration,
reduce the likelihood and enhance collection of       indicators and targets to past or future published
improper payments. Although postal manage-            documents. Rather, it was the OIG’s intent to
ment disagreed with two of the eight recom-           bring to postal management’s attention the
mendations, the actions taken or planned              importance that labor relations issues have to
should address the issues identified in the report,   all the stakeholders. The OIG noted that postal
including evaluating the propriety of collecting      management, as deemed appropriate, should
the unnecessarily paid state and local taxes of       consider for inclusion labor relations goals, tar-
$91,000.                                              gets, and indicators to provide public account-
     In a cooperative effort, the district account-   ability and to demonstrate the Postal Service’s

                                                                                                              PAGE 19
                                        continued commitment to improving the major            ableness of costs incurred by contractors; pro-
                                        management issues. The Postal Service has              posal audits that evaluated the reasonableness of
                                        taken positive steps by having transformation          contractor cost estimates; and claim audits that
                                        initiatives to address labor relations issues. In      evaluated whether claims submitted by contrac-
                                        addition, postal management has stated that it is      tors were accurate, valid, and properly support-
                                        considering changes or additions to the goals,         ed. These audits are summarized in the graph in
                                        objectives, indicators, and targets, especially as a   the margin and focus on whether contractors’:
                                        result of transformation initiatives.
                                                                                               ◆   proposed and incurred costs were allow-
                                        (FT-AR-03-010)                                             able and reasonable; and
Types and Number of Contract            CONTRACTING AND FACILITIES                             ◆   pricing data were accurate, complete, and
Audits Completed                        REVIEWS                                                    current.
                                              The Postal Service manages nearly
                                                                                               The following is a summary of 3 significant
                                        $19.5 billion annually in contracts for essential
                                                                                               contract audits completed in the last 6 months:
                                        goods, non-transportation services, and facili-
        3                 3             ties-related services. Consequently, this makes        ◆   An audit of a contractor’s $329 million
     INCURRED         PROPOSALS                                                                    firm fixed price proposal for a biohazard
     COSTS                              the Postal Service one of the largest civilian
                                        contracting agencies in government. During the             detection system program revealed the
                                        second half of FY 2003, Postal Service purchas-            proposal was not acceptable as a basis for
                                        es included over $570 million in noncompeti-               negotiation of a fair and reasonable price.
                                                                                                   The total amount included $266 million
    3                 5                 tive contracts and more than $181 million in
  CLAIMS           OTHERS
                                                                                                   for the basic portion and $63 million for
                                        purchase credit card transactions. The Postal
                                                                                                   the options. The audit disclosed ques-
                                        Service is also one of America’s largest owners,
                                                                                                   tioned costs of nearly $61 million, which
                                        developers, and managers of real estate, commit-           included unsupported costs of approxi-
                                        ting over $274 million for repair, renovation,             mately $8.4 million. Additionally, direct
The OIG completed 14 audits of
contracts valued at over
                                        and construction of new facilities, and paying             material costs based on engineering esti-
$511.7 million.                         over $569 million in rent for the second half of           mates were questioned because the con-
                                        FY 2003.                                                   tractor was unable to provide supporting
                                              The OIG is responsible for contract audits           documentation, and proposed material
                                        designed to assist Postal Service contracting offi-        costs normally included in overhead costs
                                        cers in determining fair and reasonable contract           were questioned in their entirety. Labor
                                        prices as well as providing them with reviews of           hours were also questioned based on
                                        contractor financial systems. In the past                  results of the technical evaluation.
                                        6 months, the OIG completed 17 reviews of                  Unsupported costs were the result of the
                                        contracting and facilities-related issues with the         contractor not providing auditable docu-
                                        assistance of a contract audit agency. Also, the           mentation to support certain proposed
                                                                                                   costs based on engineering estimates.
                                        OIG has many open criminal investigations tar-
                                                                                                   Therefore, the OIG recommended that a
                                        geting fraud and corruption in these areas. High-
                                                                                                   downward savings clause be included in
                                        lights of some contracting and facilities reviews
                                                                                                   the contract. (CA-CAR-03-15)
                                        follow below:
                                                                                               ◆   A review of a contractor’s equitable
                                        CONTRACT AUDITS IDENTIFY                                   adjustment in the amount of $726,903
                                        OVER $69.9 MILLION IN                                      disclosed questioned costs of approxi-
                                        QUESTIONED AND                                             mately $703,000. Following audit
                                        UNSUPPORTED COSTS                                          inquiries, the contractor withdrew pro-
                                             In the past 6 months, the OIG worked with             posed general and administrative costs
                                        the Defense Contract Audit Agency and com-                 and profits and fees in their entirety, stat-
                                        pleted 14 audits of contracts valued at over               ing that subsequent work added to the
                                        $511.7 million. These audits resulted in over              contract nullified these costs. However,
                                        $69.9 million in questioned and unsupported                the contractor’s total questioned costs
                                        costs. The contract audits primarily include:              were offset by $16,418 due to the con-
                                        incurred cost audits that evaluated the reason-            tractor’s underestimation of other pro-
                                                                                                   posed costs. (CA-CAR-03-014)

                              PAGE 20   FINANCIAL MANAGEMENT REVIEWS
◆   An audit of a contractor’s revised fixed       renewing its leases in accordance with policies
    price proposal of approximately $32 mil-       and procedures. Additionally, the OIG found no
    lion disclosed questioned costs of about       issues when reviewing 11 leases, totaling over
    $7 million. Questioned costs were primar-      $2.9 million in annual rent, which were termi-
    ily proposed profit applied to inter-com-      nated before expiration. However, facilities per-
    pany costs within the direct material unit     sonnel did not always identify and document the
    costs. These proposed costs represented a      condition of facilities before lease renewal. As a
    pyramiding of profit because the summary
                                                   result, the Postal Service did not always have
    proposal contained a separate line item
                                                   sufficient information available to effectively
    for proposed profit. The OIG considered
                                                   negotiate leases or resolve maintenance issues.
    the proposal acceptable as a basis for the
    negotiation of a fair and reasonable con-      Postal management agreed with the recommen-
    tract price. However, the OIG believes         dations to use the new facility condition check-
    the nearly $7 million of questioned costs      list to identify and document the condition of
    also should be considered in the negotia-      facilities prior to lease renewal and to communi-
    tion process. (IR-CAR-03-006)                  cate this information to facilities personnel.
                                                   Postal management also agreed to enforce the
CHANGES NEEDED TO COMMON                           requirement to send the lessor a letter of out-
AREA MAINTENANCE CHARGES                           standing maintenance items when the lessor is
     An OIG audit found procedures and inter-      responsible for maintenance, and to document
nal controls for common area maintenance           outstanding maintenance items before assuming
charges needed strengthening. The OIG found        maintenance responsibility from the lessor.
that lease agreements did not contain necessary    Postal management’s comments are responsive
common area maintenance language and a stan-       to the OIG’s recommendations, and actions
dard common area maintenance definition or         taken or planned should correct the issues iden-
clause did not exist. In addition, the OIG found   tified in the report. (CA-MA-03-009)
that common area maintenance charges were
                                                   OIG CONTRACTOR
not tracked or reviewed. As a result, the Postal
                                                   INVESTIGATIONS TARGET
Service could be subject to overcharges by         FRAUD AND CORRUPTION
lessors. During the audit, Postal Service man-
                                                        The OIG conducts investigations relating
agement began developing a standard common
                                                   to the Postal Service’s contracting and facilities
area maintenance clause. They were also recep-
                                                   areas. These investigations target contractors
tive to establishing procedures to track leases
                                                   who have attempted to defraud the Postal Ser-
with common area maintenance clauses and to
                                                   vice by submitting false invoices, performing
obtaining independent audits of common area
                                                   poor work, or using substandard construction
maintenance charges. The OIG recommended
                                                   material. These investigations help ensure that
that postal management enforce compliance
                                                   the financial interests of the Postal Service are
with existing policies and procedures for com-
                                                   protected. In some instances, these investiga-
mon area maintenance costs, establish and
                                                   tions result in significant recoveries and improve
implement a standard common area mainte-
                                                   the safety of employees and customers. During
nance definition and clause, establish and
                                                   the past 6 months, the OIG has reported signif-
implement a system to track common area
                                                   icant activities in this area, some of which are
maintenance charges, and establish and imple-
                                                   highlighted below:
ment procedures for audits. Postal management
generally agreed with OIG’s recommendations.       ◆   As a result of an OIG investigation,
(CA-AR-03-002)                                         a California manufacturer agreed to
                                                       pay $2 million to the government,
MANAGEMENT OF FACILITY                                 $1.6 million of which will go to the Postal
LEASE PROGRAM                                          Service, to settle allegations that the
    The OIG’s review of 72 leases totaling over        contractor knowingly provided the Postal
$14.1 million in annual rent disclosed that the        Service with defective mail sorting equip-
Postal Service was generally initiating and            ment. The investigation was initiated


                                                                                                        PAGE 21
              based on a “whistleblower” lawsuit alleging       determined whether it is owed any
              that the manufacturer failed to perform           money resulting from his alleged actions.
              required product inspections and fabricat-    ◆   A Delaware couple presented false claims
              ed documents to make it appear that the           to the Postal Service for miles that had
              inspections had been performed. During            not been driven on a Highway Contract
              the OIG investigation, it was also deter-         Route, defrauding the Postal Service of
              mined that the defective products posed           over $56,000. The couple made full resti-
              potential safety hazards. As a result, the        tution and agreed to refrain from bidding
              Postal Service issued a nationwide safety         on or participating in any postal mail
              alert to all post offices and safety              transportation contracts for 3 years. Con-
              managers.                                         sistent with that agreement, the Postal
          ◆   An OIG investigation resulted in the              Service debarred the couple from doing
              indictment of a postal supervisor and an          business with the Postal Service.
              auto repair shop owner on charges of          ◆   As a result of an OIG investigation, a
              conspiracy to commit bribery and con-             Postal Service subcontractor pled guilty
              spiracy to submit false claims. This case         to a criminal information charging mail
              was initiated based on a referral from the        fraud and false statements. The subcon-
              Postal Inspection Service regarding irreg-        tractor was hired to clean and decontami-
              ularities on contracts for repair and main-       nate a New York Processing & Distribu-
              tenance of postal vehicles. The indict-           tion Center after anthrax was discovered
              ment alleged that the postal employee, a          there. The subcontractor created bogus
              delivery service supervisor, allowed false        training certifications that falsely repre-
              claims to be submitted for vehicle repairs,       sented its employees as having the train-
              including inflated labor charges, charges         ing needed to clean and decontaminate
              for repairing and replacing suspect items,        the facility. Because the employees did
              and bills for services not performed. The         not actually have the required training,
              auto repair shop owner has pled guilty            the resulting claims of $1.6 million that
              and is awaiting sentencing. The Postal            were submitted were in violation of the
              Service halted retirement proceedings for         contract.
              the indicted supervisor until it can be




PAGE 22   FINANCIAL MANAGEMENT REVIEWS
                                                     final deployment. The OIG understands the




                                                                                                                     Technology Reviews
TECHNOLOGY                                           importance of reviewing these systems as they
REVIEWS                                              are developed and has completed four audits of
                                                     major projects currently under development

T
         he Postal Service recognizes that tech-
         nology is key to productivity and           during the reporting period. Three of these
         affordability. Through technology, the      reviews are highlighted below:
Postal Service handles more than 660 million
                                                     MERLIN UNDERUTILIZED IN
pieces of mail every day and maintains its net-      SOUTHEAST AND SOUTHWEST
work of nearly 38,000 post offices and facilities.   AREAS
Its technology strategy is to provide convenient          At the request of the Board of Governors,
and secure access to all customers on a daily        the OIG conducted a limited review of Mailing
basis through increasingly sophisticated retail      Evaluation, Readability, and Lookup Instrument
systems, expansion in new electronic access          (MERLIN) operations. MERLIN is an automat-
channels, and electronic linkages that inte-         ed system designed for use by acceptance units to
grate customer and postal processes. In addi-        accept and verify discounted mailings. The goals
tion, the Postal Service is using modern tech-       of the MERLIN program are to automate accep-
nology, such as USPS.com, Signature Confir-          tance, make verifications consistent, and
mation™, and MoversGuide Online.com.                 improve the quality of the mailstream. MERLIN
These initiatives will improve and build on its      simultaneously verifies presort makeup, barcode
existing services and relationships with cus-        readability and accuracy, tray label accuracy,
tomers and continue meeting traditional cus-         meter identification and dates, piece counts, and
tomer demands.                                       mailpiece characteristics. However, the OIG
      The September 11, 2001, terrorist attacks      audit determined MERLIN was underutilized in
demonstrated how the nation’s infrastructure         the Southeast and Southwest Areas.
may be vulnerable to attacks. Computer systems            The OIG found these sites were verifying
are a critical component of every aspect of postal   less than the required 17 percent of mailings
operations and must be protected from potential      under 10,000 pieces. If utilization rates contin-
cyber-terrorism to prevent disruption in service.    ued to remain below target, the Postal Service
Technology investments need to be scrutinized        could lose a substantial portion of the projected
not only to minimize the risk of compromise, but     additional revenue and incur higher costs to
also to ensure that sound business decisions are     process mail. The audit also revealed improve-
made. This is particularly important as the          ments were needed for communicating policies
Postal Service reviews several technologies to       and procedures to guide business mail entry unit
identify an efficient, effective, and safe method    personnel in avoiding some computer software
to detect and prevent biohazards.                    issues, preparing weekly utilization reports, and
      OIG reviews have covered developmental         performing site readiness reviews.
systems, information systems, electronic com-             The OIG determined that local training
merce, and computer intrusion detection activi-      provided to MERLIN operators needed to be
ties. In the past 6 months, the OIG performed        more consistent. Specifically, there were discrep-
14 reviews in the technology area, some of           ancies in the type of training materials used, type
which are highlighted below:                         of training records maintained, and course con-
DEVELOPMENTAL REVIEWS                                tent covered. These discrepancies may negative-
    The Postal Service develops business sys-        ly impact the quality, effectiveness, and com-
tems and mail processing equipment to improve        pleteness of local training. The OIG made seven
performance, enhance service, and reduce             recommendations to improve utilization, com-
operating costs. The typical development             munications, and local training for the MERLIN
process begins with the identification of a busi-    program. Postal management agreed with all
ness need. After the business need has been          seven recommendations and all actions were
identified, a solution is developed, followed by     completed or planned prior to completion of the
the proof of concept and first article tests and     audit. (DA-AR-03-006)



                                                                                                           PAGE 23
          RELIABILITY AND TESTING ISSUES                         Capability machine allows bulky letter mail,
          CONCERNING WIDE FIELD VIEW                             which is primarily processed manually, to be
          CAMERA SYSTEM                                          sorted on the Delivery Bar Code Sorter
                An OIG review of the new Wide Field              machines. The Postal Service’s business decision
          View Camera System identified two areas of             to continue the Delivery Bar Code Sorter –
          concern. First, the camera system experienced          Expanded Capability program without fully
          reliability issues during the field First Article      addressing the First Article Test failures did not
          Test. Specifically, there were ten occurrences of      ensure that the program could effectively
          camera offline conditions and two computer             process bulky mail without damaging the mail.
          installation failures. During the test period, if           When the machine did not pass First
          the vendor performed extensive corrective              Article Tests, postal management revalidated
          maintenance, the test may have been terminat-          performance through a demonstration and elim-
          ed. Thus, the vendor did not attempt to resolve        inated contractual requirements. In addition,
          the reliability issues at that time in order to com-   the review found that many sites processed small
          plete the field First Article Test.                    percentages of bulky mail and used Delivery Bar
                Subsequently, in order to pinpoint why the       Code Sorter machines to process regular
          reliability issues occurred, Engineering post-         automation mail. If this continues, the efficien-
          poned the national deployment of the Wide              cies and savings of processing bulky mail on the
          Field of View Camera System. The vendor                machine may not be realized. The concerns
          determined camera offline conditions occurred          identified could also affect future Postal Service
          due to human and software errors. In addition,         initiatives.
          the vendor could not determine why some com-                The OIG recommended postal manage-
          puters failed after installation. As a result, the     ment direct the Test Evaluation and Quality
          vendor created an updated software version to          group to evaluate the testing process and results
          correct the reliability issues. Engineering offi-      and ensure that all testing of the Delivery Bar
          cials stated postal management plans to follow         Code Sorter Input Output Subsystem – Expand-
          the Software Development Life Cycle test pro-          ed Capability is conducted under the direction
          cedures to ensure reliability issues will be           and approval of the group. The OIG also rec-
          resolved in updated software versions. If the          ommended that postal management determine
          Wide Field of View Camera System is deployed           whether the actual performance of the Delivery
          without correcting these issues and document-          Bar Code Sorter – Expanded Capability for pro-
          ing results, productivity in mail processing facil-    cessing bulky mail meets the savings projected
          ities may decrease.                                    in the Decision Analysis Report. Postal manage-
                The OIG recommended that Engineering             ment agreed with both recommendations and
          officials continue to monitor and report on the        actions taken or planned should correct the
          Wide Field of View Camera System’s reliability         issues identified in the report. The Postal Ser-
          issues. Postal management agreed with the              vice indicated that volumes processed on the
          OIG’s recommendation and actions taken or              machines, including bulky and automation
          planned should correct the issues identified.          compatible letter mail, will produce the level of
          Subsequently, all issues were resolved and the         savings contained in the Decision Analysis
          Postal Service is now realizing the benefits pro-      Report. (DA-AR-03-007)
          jected, especially an improved read rate.              INFORMATION SYSTEMS
          (DA-AR-03-005)                                         REVIEWS
          DELIVERY BAR CODE SORTER                                    The Postal Service relies on a complex
          MACHINE NOT USED MOST                                  computer infrastructure to accomplish and
          EFFECTIVELY                                            streamline operations, manage one of the largest
              The OIG reviewed the Delivery Bar Code             civilian workforces in the world, and move bil-
          Sorter – Expanded Capability to determine the          lions of pieces of mail each year. The Postal Ser-
          adequacy of testing and evaluate machine use.          vice has initiated several information technolo-
          The Delivery Bar Code Sorter – Expanded                gy projects to enhance efficiency and increase



PAGE 24   TECHNOLOGY REVIEWS
revenue. The Postal Service must continue to          structure for information systems security man-
ensure computer security is maintained and            agement as the cause of many of the control
improved to reduce the risk of fraud, inappropri-     weaknesses identified.
ate disclosure of sensitive data, unauthorized dis-        The OIG made 17 recommendations to
closure of customer information, and disruption       improve the security and reliability of the engi-
of critical operations and services. The most sig-    neering facility’s site and computer environ-
nificant reviews are highlighted below:               ment. Postal management agreed with 15 rec-
                                                      ommendations and disagreed in part with 2 rec-
WEAKNESSES FOUND IN
                                                      ommendations. However, Postal management’s
ELECTRONIC TRAVEL VOUCHER
SYSTEM                                                actions taken or planned for all 17 recommen-
                                                      dations should resolve the issues identified in
      The OIG conducted a network vulnerabil-
                                                      the report. (IS-AR-03-008)
ity assessment of the electronic travel reimburse-
ment system used by the Postal Service, which         OPERATING SYSTEM CONTROL
was implemented in 2001. Although the OIG             WEAKNESSES IDENTIFIED AT THE
determined the systems to be well managed,            POSTAL SERVICE NATIONAL
potential network vulnerabilities in the reim-        CUSTOMER SUPPORT CENTER
bursement system were identified that merit                An OIG audit revealed weaknesses in three
improvements to strengthen security over the          of seven operating system control areas tested at
system. Detailed results of the network assess-       a Postal Service Customer Support Center. The
ment were provided to postal management and           OIG provided eight recommendations to
to system administrators in a separate technical      strengthen overall controls of the operating sys-
report. This technical report did not provide         tem environment and to ensure compliance
recommendations for corrective action. Rather,        with Postal Service requirements. Postal man-
the report was intended to provide system             agement agreed with all of the recommenda-
administrators with the technical information         tions and has initiatives in progress, completed,
necessary to establish priorities to initiate cor-    or planned to address the issues identified.
rective action.                                            In addition, the audit verified the status of
      Postal Service management generally             postal management’s corrective action in
agreed with five recommendations in the               response to 16 recommendations made by the
report. Although management disagreed with            OIG in a previous review of security access con-
                                                                                                           The OIG identified network vulnerabilities
one recommendation, they took action which            trols at the center. As a result of the follow-up
                                                                                                           in the Postal Service’s travel voucher
was responsive to the intent of the recommen-         review, the OIG recommended closure on 12 of         system.
dation and should correct the issue identified.       the 16 recommendations made from its previous
(IS-CS-03-002 and IS-AR-03-006)                       review. All of the four remaining follow-up rec-
                                                      ommendations were subsequently closed.
CONTROL WEAKNESSES                                    (IS-AR-03-005)
IDENTIFIED AT AN ENGINEERING
RESEARCH AND DEVELOPMENT                              eCOMMERCE REVIEWS
CENTER                                                      The Postal Service continues to provide
      The OIG conducted an audit of a Postal          customers with new online products and ser-
Service Engineering Research and Develop-             vices to enhance their personal and profession-
ment Center to determine whether controls at          al lives. In addition, the Postal Service contin-
the center were adequate to safeguard the             ues to improve the performance and usability of
integrity of resources and ensure continuity of       its web presence to ensure secure access and
operations. The OIG also conducted a vulnera-         protect customer privacy. The Postal Service
bility assessment of network and computer sys-        has also eliminated or consolidated initiatives
tems at the center. The audit identified control      that do not fully support the core products and
weaknesses in the overall security at the mainte-     contribute to revenue. Ongoing OIG efforts
nance facility and in four of the six general and     during this period focused on online mailing
management control areas tested. The OIG              services, online change of address and adequacy
considered the lack of a formal, centralized


                                                                                                            PAGE 25
          of validation process, epayments, and alterna-        ty of the NetPost Services program to determine
          tives to using Internet auctions for mail recov-      whether continued investment in the program is
          ery purposes.                                         in the best interest of the Postal Service, and, if
                                                                so, to prepare and submit a Decision Analysis
          NETPOST SERVICES PROGRAM
                                                                Report Modification Request to the Board of
          FALLS SHORT OF ORIGINAL
          FINANCIAL PROJECTIONS                                 Governors; and to identify key performance
                                                                measures for the NetPost Services program and
               The OIG audited the financial perfor-
                                                                require that these measures be reported to the
          mance of the NetPost Services program, which
                                                                Board of Governors. Postal management stated
          consists of four components: Mailing Online,
                                                                that it monitored the Mailing Online project by
          CardStore, Premium Postcards, and Certified
                                                                reviewing the profit and loss statements, briefin-
          Mail. The audit disclosed that the program has
                                                                gs to the Board’s Strategic Planning Committee
          fallen short of the original financial projections
                                                                and reporting indicators in the Investment
          contained in the Decision Analysis Report. In
                                                                Highlights.
          addition, in revising its original projections, the
                                                                     Although postal management has recently
          Postal Service used limited actual performance
                                                                announced changes in the Mailing Online com-
          data instead of incorporating updated market
                                                                ponent of the NetPost Services program, it has
          research data, including data on the impact of
                                                                not provided details of the changes or plans for
          the Postal Service’s partnership under its Direct
                                                                the program’s other three components. Without
          Mail program with a competitor of the NetPost
                                                                additional information on the changes to the
          Services program. Projections incorporating
                                                                entire NetPost Services program, the OIG could
          current market data would have been more
                                                                not determine whether postal management
          credible and have allowed the Postal Service to
                                                                actions will resolve the issues identified in the
          better assess the program’s viability. Further,
                                                                report. The OIG will continue to monitor how
          although the volume assumptions have changed
                                                                recent changes may impact the NetPost Ser-
          significantly and the Postal Service has revised
                                                                vices program. (OE-AR-03-007)
          these projections, the Postal Service has not pre-
          pared and submitted to the Board of Governors         TECHNICAL CRIMES UNIT
          a modified Decision Analysis Report. The audit        ACTIVITIES
          also disclosed that the quarterly Investment               The OIG investigates criminal violations
          Highlights report, the tool that the Postal Ser-      of state and federal laws enacted to protect the
          vice uses to communicate the status of projects       authenticity, privacy, integrity, and availability
          to the Board of Governors, does not include key       of electronically stored and transmitted infor-
          performance measures and results.                     mation. eCommerce ventures make the protec-
               After the end of the OIG’s fieldwork, but        tion of postal information systems critical to
          prior to report issuance, the Postal Service          the financial viability of the Postal Service.
          informed the OIG that it was not extending the        Because such ventures involve connectivity
          Mailing Online experiment and would not file          between postal systems and eCommerce part-
          for permanent service. Furthermore, the Postal        ners, the OIG conducts investigations of
          Service entered into a partnership with a             attacks on the security of those systems in order
          private entity that would own and operate the         to maintain the integrity of eCommerce infor-
          Mailing Online component of the NetPost               mation. The OIG informs postal management
          Services program.                                     and eCommerce partners regarding emerging
               Postal management disagreed with the             threats to information systems and assists them
          OIG’s recommendations to update market                in identifying and eliminating potential vul-
          research data on hybrid mail and to include this      nerabilities. These efforts include assisting the
          data when revising the program’s financial pro-       Postal Service in developing security policies,
          jections and to assess the impact of the program      information systems, and eCommerce proce-
          on the Postal Service’s partnership with a com-       dures that conform to the best practices in
          petitor. Postal management partially disagreed        industry and government.
          with the recommendations to assess the viabili-            The OIG Technical Crimes Unit has one



PAGE 26   TECHNOLOGY REVIEWS
investigative team of technology specialists who       an individual who compromised a Postal
conduct forensic examinations and computer             Service server, gained unauthorized
investigations in support of OIG investigations,       access, and was attempting to crack all
and another team of technical services special-        the encrypted passwords on the computer
ists who conduct site surveys to evaluate the          system.
possibility of radio communications and covert     ◆   Seized suspects’ computers for forensic
surveillance.                                          analysis and interviewed an individual
     During this reporting period, the OIG             suspected of being a member of a hacking
Technical Crimes Unit supported 84 OIG inves-          group that compromised the Postal Rate
tigations and provided computer forensics and          Commission’s website.
technical services to assist the Postal Service    ◆   Assisted in the installation and monitor-
and other government agencies. Some efforts            ing of numerous vehicle tracing devices,
are highlighted below:                                 electronic audio interceptions, and covert
                                                       video surveillance devices.
◆   Worked with the Postal Service Critical
    Incident Response Team (CIRT), to              ◆   Assisted in search warrants for several
    respond to incidents of potential comput-          investigations of health care providers
    er compromises. In one incident, the               suspected of defrauding the government
    CIRT and the Technical Crimes Unit                 and conducted forensic analysis on com-      The OIG’s Technical Crimes Unit assists
    identified and obtained a confession from          puter hard drives.                           in investigations by seizing suspects’
                                                                                                    computers for forensics analysis.




                                                                                                     PAGE 27
PAGE 28   TECHNOLOGY REVIEWS
                                                      complaints of a hostile work environment or
LABOR MANAGEMENT




                                                                                                                      Labor Management Reviews
                                                      other health and safety issues, some of which are
REVIEWS                                               highlighted below:



T
         he Postal Service has characterized
                                                      POTENTIALLY UNSAFE
         improving labor management relations         CONDITIONS AT THE GROTON,
         as one of the most important challenges      CONNECTICUT MAIN POST
in achieving its mission in the 21st century. A       OFFICE
key Postal Service strategy in the labor manage-           An OIG audit in response to employee alle-
ment area is to provide a safe, fair, and inclusive   gations confirmed the existence of potentially
workplace for motivated employees who are             unsafe working conditions at the Groton, Con-
given the tools, training, and support to do their    necticut, Main Post Office. Specifically, the
jobs effectively and efficiently. With more than      OIG found evidence of leaking roof water,
830,000 full and part-time employees working at       potential hazards from electrical shock and fire,
over 38,000 facilities nationwide, the Postal Ser-    damaged ceiling tiles, questionable bacteria,
vice recognizes that it will remain a labor-inten-    blocked access to an electrical service area, mold
sive organization for the foreseeable future, and     in delivery vehicles, improper maintenance of
success will depend on improving the postal cul-      asbestos floor tiles, and chemicals stored improp-
ture to create a more highly skilled, motivated,      erly and without documentation. These condi-
and productive workforce. Additionally, in light      tions are potential violations of government
of terrorist attacks, including attacks involving     safety and health requirements and increase the
the transport of anthrax through the mail, the        risk of injury and illness to Postal Service
Postal Service must take every precaution to          employees and customers.
ensure the safety and well being of its employees.         The OIG recommended that postal man-
     The OIG supports the Postal Service in its       agement inspect the roof of the Groton, Con-
overall goal to develop a motivated and produc-       necticut, Main Post Office as soon as possible to
tive workforce. The labor management area             determine whether it requires improvement or
includes workplace environment, human                 replacement; assess the existing electrical system
resources, and health care. While the OIG has         and make any necessary improvements; replace
worked diligently with the Postal Service and         all damaged or missing ceiling tiles; and ensure
Congress to address these areas of concern,           that repair and safety needs are resolved in a
reviewing labor management areas continues to         timely manner. The OIG also recommended
be one of the OIG’s greatest challenges. In this      that postal management ensure that delivery
regard, the OIG has received over 4,000 indi-         vehicles are cleaned monthly, as required by
vidual labor management complaints since              Postal Service policy; that periodic asbestos
1997. During this reporting period, the OIG           inspections are performed as required by the
completed 5 reviews and closed 26 inquiries in        Environmental Protection Agency and the
the labor management area. In addition, the           Postal Service; and that the Groton, Connecti-
OIG conducted 18 health care fraud investiga-         cut, Main Post Office complies fully with Occu-
tions and 10 reprisal investigations and inquiries    pational Safety and Health Administration
in this area.                                         standards and Postal Service policies for the
WORKPLACE ENVIRONMENT                                 maintenance of building materials that contain
REVIEWS                                               asbestos.
     The Postal Service has identified signs of            Postal management agreed with the OIG’s
workplace stress in many of its facilities and is     recommendations, and actions taken or planned
developing comprehensive steps to improve the         should correct the issues identified in the report.
workplace environment, including improving            Postal management did not agree that the OIG’s
relations between managers and employees and          corresponding video and fact sheet reflected the
aligning human resources with business require-       true conditions at the post office and that the
ments. During this reporting period, the OIG          video was an appropriate vehicle for the audit
has conducted 2 audits and 156 inquiries into         report. They also stated that the decision to



                                                                                                            PAGE 29
          renew the lease on the facility was a proper busi-      postal management disagreed with the OIG’s
          ness decision. Postal management indicated that         recommendation to modify the Grievance and
          while the building does have maintenance issues         Arbitration Tracking System to capture key
          typical of an older facility, these issues are being    costs associated with labor management prob-
          addressed, and the facility does provide safe con-      lems, subsequent discussions on the issue have
          ditions for employees and customers. The OIG            resulted in actions taken or planned that will
          believes the decision to renew the lease might          satisfy the recommendation. Postal manage-
          have been proper from an economic standpoint,           ment agreed with several other recommenda-
          but the safety of employees and customers               tions including the need to explore the potential
          should be paramount. (LH-AR-03-010)                     benefits of implementing best practices the OIG
                                                                  identified, as well as the continuance of their
          GRIEVANCE ARBITRATION
                                                                  joint efforts with the unions to improve labor-
          PROCESS COULD BE IMPROVED
                                                                  management relations. Actions taken or
               The OIG audited the Postal Service’s efforts
                                                                  planned should correct some of the issues
          to resolve grievances at the lowest possible step
                                                                  identified in the report. (LH-AR-03-012)
          of the grievance arbitration procedures. The
          audit found the Postal Service did not fully            HUMAN RESOURCE PROCESS
          implement most of the recommendations and               REVIEWS
          suggestions made by the OIG in past audits                   Postal Service managers are responsible for
          addressing this issue. The Postal Service               preserving and protecting official records and
          explained that it is difficult to unilaterally imple-   privacy information. In addition, managers must
          ment policies and procedures because all such           avoid conflicts of interest, which could affect
          changes must be negotiated with the labor               both the public’s trust and confidence in Postal
          unions according to the collective bargaining           Service human resource processes. Postal Ser-
          process. The audit also found the Postal Service        vice managers are also responsible for complying
          and the four major unions also did not fully            with existing policies and procedures regarding
          implement recommendations made by indepen-              sexual harassment, overtime, leave, compensa-
          dent organizations, including the General               tion and benefits, and training. An example of
          Accounting Office. However, they had made               work conducted in this area is highlighted
          efforts to improve the labor-management rela-           below:
          tionship and the overall grievance arbitration
                                                                  CAPPING REPORT ON SEXUAL
          process, including reducing the arbitration back-       HARASSMENT PREVENTION
          log in FY 2003. The Postal Service and the major        MEASURES
          unions have also worked together in developing               The OIG audited sexual harassment pre-
          the Contract Interpretation and the Joint Con-          vention measures in 18 district offices and found
          tract Interpretation manuals.                           their sexual harassment policies and procedures
               Although the Postal Service did not have           were adequate, most of the employees found
          cost data on all costs related to labor manage-         responsible for sexual harassment or inappropri-
          ment issues, and as a result, could not identify        ate actions or comments were appropriately dis-
          areas for potential cost savings, the OIG               ciplined or corrective action was taken, and
          estimated the Postal Service could incur about          most managers and supervisors found responsi-
          $1.1 billion in FYs 1999 through 2003 for costs         ble for sexual harassment or inappropriate com-
          related to labor management issues. The OIG             ments and actions were considered for exclusion
          also found that postal management and union             from the Pay for Performance Program. The
          officials did not always follow the grievance arbi-     OIG also found the districts effectively
          tration procedures required by the national             addressed more than half of the sexual harass-
          agreements to resolve labor-management issues.          ment complaints reviewed.
               The OIG made six recommendations to                     Subsequent to report issuance, postal man-
          management and encouraged union participa-              agement agreed with the OIG’s recommenda-
          tion to improve the grievance arbitration               tion to ensure that managers and supervisors
          process and labor management relations. While           address sexual harassment complaints and inap-


PAGE 30   LABOR MANAGEMENT REVIEWS
propriate actions and comments of a sexual             to Postal Service health care premiums. To
nature, and also agreed with the OIG’s recom-          enhance these efforts, the OIG has partnered
mendation to document detailed evidence of             with the Department of Labor Office of Inspec-
actions taken to address all complaints.               tor General to conduct joint investigations of
(LH-AR-03-011)                                         workers’ compensation programs. On December
                                                       7, 2002, the OIG assumed responsibility for all
SPECIAL INQUIRIES TEAM
ACTIVITIES                                             new allegations of employee workers’ compensa-
                                                       tion fraud within the Capital Metro area. This
     The OIG Special Inquiries Team is respon-
                                                       new area of responsibility is in addition to the
sible for reviewing allegations involving Postal
                                                       OIG’s jurisdiction over investigations of fraud
Service executives for misconduct, including
                                                       committed by health care providers.
retaliation against individuals who have previ-
                                                            The OIG investigates allegations of fraud
ously provided the OIG with information about
                                                       involving health care providers who are paid by,
possible fraud, abuse, and mismanagement.
                                                       or on behalf of, the Postal Service for medical
     During this reporting period, the Special
                                                       services rendered to Postal Service employees
Inquiries Team investigated 10 allegations of
                                                       related to:
reprisal, including:
                                                       ◆   Federal Employees’ Compensation Act.
◆    An investigation of a reprisal allegation
                                                           This act is administered by the Depart-
     from a complainant who alleged postal
                                                           ment of Labor with costs charged back to
     management removed her from a post-
                                                           the Postal Service.
     master position for reporting fraud, waste,
     and abuse in her district to the Postmas-         ◆   Postal Service-contracted doctors and
     ter General. The investigation did not                facilities. Approximately 1,500 physicians
     substantiate the allegation.                          and facilities are contracted and paid
                                                           directly by the Postal Service to provide
◆    An investigation of a reprisal allegation
                                                           medical services to its employees.
     from a retired Postal Service physician
     who alleged that his contract was not             ◆   Federal Employees Health Benefits
     renewed by the Postal Service and he was              Program. The Postal Service pays
     forced to retire because he provided infor-           80 percent of over 830,000 full and
     mation to an OIG special agent concern-               part-time employees’ insurance premiums.
     ing alleged illegal activity by a contracted           In the past 6 months, the OIG completed
     nurse. The investigation did not substan-         18 investigations and 9 proactive investigative
     tiate the allegation.
                                                       initiatives in this area, which resulted in 2 con-
                                                       victions. The investigations identified federal
HEALTH CARE REVIEWS
                                                       and state violations of money laundering, con-
     Controlling workers’ compensation costs
                                                       spiracy, racketeering, grand theft, and mail fraud
continues to be key to the Postal Service’s finan-
                                                       by licensed or unlicensed health care providers.
cial well being because it is self-insured and
                                                       In addition, the OIG conducted two reviews of
makes payments out of operating funds, which
                                                       health care-related issues. Some of the OIG’s
directly affects the Postal Service’s net income.
                                                       more significant investigations and reviews are
In FY 2003, the Postal Service paid the Depart-
                                                       highlighted below:
ment of Labor over $847 million for workers’
compensation charges, a $62 million increase           SOUTHEAST AREA PAID OUT
over the $785 million in FY 2002.                      APPROXIMATELY $350,000 FOR
     The OIG assists in protecting the health          NONWORK-RELATED INJURIES
and welfare of the Postal Service’s workforce by            An OIG audit disclosed that officials in
conducting audits and investigations to prevent        two districts located in the Southeast Area
and detect fraud, waste, abuse, and mismanage-         were proactive in managing cases of employees
ment related to Postal Service health care pro-        on the periodic roll. The audit found injury
gram costs. Involvement in health care fraud           compensation officials in both districts period-
investigations is vital to controlling costs related   ically coordinated with the Office of Workers’



                                                                                                            PAGE 31
          Compensation Programs to initiate actions to         workers’ compensation claims for services he
          resolve case issues. However, one of the districts   had not provided. The physician received over
          had difficulty in getting responses from the         $22,000 in payments for medical services
          Office of Workers’ Compensation Programs on          charged to Postal Service claimants. A San
          the medical status of employees. In addition, the    Diego Superior Court judge has suspended the
          Postal Service may be paying medical charges         physician’s medical license pending the out-
          for nonwork-related injuries for employees sepa-     come of the judicial proceedings.
          rated from employment with the Postal Service.
                                                               POSTAL UNION OFFICIAL PART
          In one district, the OIG determined that a sep-
                                                               OF CORRUPTION SCHEME
          arated employee received medical treatment for
                                                                    As part of a multi-agency task force case,
          nonwork-related injuries totaling approximately
                                                               the OIG investigated a corruption scheme in
          $350,000. The OIG plans to conduct a follow-
                                                               which a postal union official, now retired,
          up audit on this particular issue.
                                                               allegedly conspired to solicit and receive kick-
          (HK-AR-03-003)
                                                               backs from health care providers in return for
          SAN DIEGO PHYSICIAN INDICTED                         referring postal employees for medical treat-
          FOR WORKERS’ COMPENSATION                            ment related to occupational injuries sustained
          FRAUD                                                in the performance of duty. To date, four indi-
               As a result of a joint investigation by the     viduals have been indicted; two have pled
          OIG, the Department of Labor, and the Califor-       guilty; and two are scheduled for trial in
          nia Department of Insurance, a San Diego             November. One has been sentenced to 6
          physician was indicted on 23 counts for alleged-     months home detention and 3 years probation
          ly committing workers’ compensation related          and was ordered to pay restitution of nearly
          fraud and perjury. The investigation revealed        $36,000 to the Department of Labor.
          that the physician was submitting fraudulent




PAGE 32   LABOR MANAGEMENT REVIEWS
                                                     vices group tracked and monitored variances
OVERSIGHT OF THE




                                                                                                                     Oversight of the Inspection Service
                                                     between actual and planned expenditures for
INSPECTION SERVICE                                   their $76.3 million non-personnel budget. The
                                                     OIG did not review personnel costs or staffing
OVERSIGHT REVIEWS                                    because this area was being concurrently


T
         he Inspector General Act, as amended,       reviewed as part of another OIG audit. Postal
         provides for the OIG to conduct, super-     Inspection Service management neither agreed
         vise, coordinate, and provide policy        nor disagreed with the OIG’s recommendation
direction for the programs and operations of         to establish a process to implement a zero-based
the Postal Service, including the Inspection         budget program. However, the OIG viewed this
Service. The Inspector General Act also gives        recommendation as unresolved and plans to
the OIG “oversight responsibility for all activi-    pursue it through formal audit resolution
ties of the Inspection Service, including any        process. (SA-AR-03-005)
internal investigations performed by the
Inspection Service.”                                 CONTROLS OVER FIREARMS
     The OIG provides information and analy-         COULD BE IMPROVED
ses to the Governors, Congress, and postal man-           The OIG issued two interim audit reports of
agement regarding Inspection Service opera-          the Postal Inspection Service’s controls over
tions. During the last 6 months, the OIG com-        firearms. The initial interim audit concerned
pleted 5 oversight reviews, as well as numerous      whether firearms reported as lost, stolen, or miss-
monitoring activities, which are highlighted         ing were accurately transferred from the old
below:                                               database to the new database system. The audit
                                                     revealed the inventory data in the current data-
POSTAL INSPECTION SERVICE                            base and the old database did not reconcile.
BUDGETING PROCESS COULD BE                           Postal management stated they were aware of
IMPROVED                                             the variances between the old and new invento-
      An OIG review of the Postal Inspection         ry systems, but they used data in the new data-
Service’s budgeting process found the Postal         base to respond to a General Accounting Office
Inspection Service did not prepare a zero-based      study without revealing the discrepancies.
budget. The FY 2003 budget was based upon his-            Additionally, a physical inventory conduct-
torical projections and management input.            ed in November and December 2002 did not
Therefore, it could not be determined if require-    report any discrepancies, although nine firearms
ments had been properly identified or developed      listed as on hand were listed in the National
for its $487.5 million FY 2003 budget. The OIG       Crime Information Center database as lost,
audit also revealed that justifications supporting   stolen, or missing. The OIG recommended that
$25.1 million of non-personnel budget line           postal management conduct a complete physical
items totaling $36.8 million were not adequate.      inventory and reconciliation of data, notify the
In some cases, no justifications were provided.      General Accounting Office of the inventory
This may have occurred because the Postal            errors, and report the most current information
Inspection Service did not provide budget offi-      to the National Crime Information Center.
cials with adequate guidance or training for              The OIG’s second interim audit report con-
developing justifications. However, the Postal       cerned whether the firearms purchased nation-
Inspection Service provided adequate justifica-      ally in 1987 from Sturm, Ruger and Company,
tions for $23.8 million for eight Postal Inspec-     Inc., were accurately accounted for through a
tion Service programs such as security, equip-       reconciliation of the national inventory. The
ment, and database development.                      audit disclosed that seven of the firearms not
      In addition, the OIG audit determined that     listed in the Postal Inspection Service inventory
the eight programs were consistent with the          were reported as lost, stolen, or missing to the
Postal Inspection Service’s FY 2003 Annual Per-      National Crime Information Center by the
formance Plan. It also found the Postal Inspec-      Postal Inspection Service. In addition, one of
tion Service’s Finance and Administrative Ser-       the seven firearms, reported in the National



                                                                                                           PAGE 33
          Crime Information Center by the Postal Inspec-     REVIEW OF COMPLAINTS
          tion Service in 1999, was transferred in 1995 to   REGARDING THE INSPECTION
          and is currently on hand at the United States      SERVICE
          Probation Department. Further, four firearms            The OIG’s oversight of the Inspection Ser-
          not in the national inventory were returned to     vice provides customers, employees, and other
          the company for credit. The Postal Inspection      interested persons with an avenue to address
          Service could not provide any data to support      concerns regarding the Inspection Service. At
          the location of five firearms, and four firearms   the same time, the OIG provides the Inspec-
          identified as “Returned to Manufacturer” in the    tion Service with an unbiased review of accu-
          current National Asset Tracking System data-       sations that, if left unresolved, could harm its
          base were not returned to the company. The         reputation as a professional law enforcement
          importance of accountability over firearms can-    agency and reduce the public’s confidence in
          not be overemphasized, considering that loss       the Postal Service.
          may pose serious risks to the public.
               The OIG recommended Postal Inspection         INSPECTION SERVICE INTERNAL
          Service management ensure that accountability      INVESTIGATIONS
          of the firearms and the associated records, as          The OIG conducts investigations of mis-
          identified by the OIG as inadequate, are cor-      conduct by senior Inspection Service personnel
          rected. The OIG also made a recommendation         and monitors the conduct of internal investiga-
          concerning the adequacy of internal controls for   tions of other Inspection Service employees.
          firearms documentation in the Postal Inspection    These investigations are conducted when alle-
          Service National Asset Tracking System.            gations of employee misconduct affect the per-
          Although postal management neither agreed          formance of duties or when managers have
          nor disagreed with the recommendations in          information of employee misconduct.
          both of these interim audit reports, actions            The OIG receives information regarding
          taken or planned are responsive to the intent of   Inspection Service internal investigations,
          the recommendations and should correct the         including conclusions reached and recom-
          issues identified in the reports. (SA-AR-03-002    mended actions. Inspection Service internal
          and SA-AR-03-006)                                  investigations for this period included allega-
                                                             tions of sexual misconduct, physical assault, and
                                                             obstructing an internal investigation.




PAGE 34   OVERSIGHT OF THE INSPECTION SERVICE
                                                      programs and operations to help ensure their




                                                                                                                   Customer Service
CUSTOMER SERVICE                                      economy, efficiency, and integrity.
                                                           During this 6-month reporting period, the
EXTERNAL COMMUNICATIONS
                                                      OIG responded to 29 Congressional and Gover-


T
        he OIG is responsible for keeping mem-        nors’ inquiries. Appendix G of this report lists
        bers of Congress and the Postal Service       the OIG responses to these inquiries by subject
        Board of Governors fully and currently        area. Some examples of OIG work in response to
informed. The OIG keeps Congress informed             Congressional and Governors’ requests are high-
by issuing Semiannual Reports to Congress, tes-       lighted below:
tifying at Oversight and other hearings, and
briefing members and their staff on issues relat-     ◆   The OIG received an allegation regarding
ed to the Postal Service. The OIG regularly pro-          whether Inspection Service employees
vides synopses of audit and management advi-              should get scheduled overtime, holiday
                                                          pay, night differential, and Sunday pay, as
sory reports to Congressional committees and
                                                          provided for in Title 5 of the United
subcommittees with oversight interest in the
                                                          States Code (USC), and whether Inspec-
Postal Service. Additionally, the OIG keeps the
                                                          tion Service employees should get reim-
Governors informed through regular briefings              bursed for one-half of the premium for
at Board meetings, activity reports from the              professional liability insurance, as provid-
Inspector General, and responses to requests for          ed for in Public Law 104-208. The OIG’s
information.                                              review disclosed that neither the Title 5
                                                          provisions regarding special pay nor the
CONGRESSIONAL TESTIMONY
                                                          law regarding professional liability insur-
     Each year, since the OIG’s inception, the            ance applies to the Inspection Service.
Inspector General has testified before Congress           Postal inspectors who work in excess of
on various matters. While the OIG did not                 10 hours a day, even if scheduled in
provide testimony or written statements to                advance, are not entitled to overtime.
Congress during this reporting period, in the             However, inspectors do receive Law
past the OIG has provided testimony and state-            Enforcement Availability Pay.
ments highlighting significant work and identi-       ◆   The OIG reviewed allegations of harass-
fying opportunities for the Postal Service to             ment by Postal Service supervisors in a
improve accountability and public trust. These            Great Lakes Area facility and found a
testimonies and statements can be found in                hostile work environment might have
their entirety on the OIG’s website at                    existed for some employees due to com-
http://www.uspsoig.gov.                                   munication failures between postal man-
                                                          agement and the employees. As a result
RESPONDING TO REQUESTS                                    of the review, and to address employees’
FROM CONGRESS AND THE
                                                          concerns, Postal Service district manage-
POSTAL SERVICE GOVERNORS
                                                          ment implemented various actions,
      The OIG provides accurate and timely                including conducting a climate assess-
responses to requests from Congress and the               ment to determine concerns employees
Postal Service Governors. The OIG responds to             might have about their work place, hold-
some of these requests by conducting audits or            ing town hall meetings, and providing
investigations. However, the OIG does not                 communication training for supervisors.
generally perform audits or investigations when       ◆   The OIG received allegations concerning
an inquiry involves a non-systemic issue that             a North Carolina post office, including
may be resolved through existing administrative           allegations of a hostile work environment
or judicial processes, such as the equal employ-          created by postal management’s failure to
ment opportunity complaint process, contractu-            communicate with employees and safety
al grievance-arbitration procedures, or the Merit         and health issues in some areas of the
Systems Protection Board. The OIG may                     facility. The OIG did not substantiate the
conduct independent audits or investigations              allegation that a hostile work environ-
related to systemic issues affecting Postal Service       ment existed. However, the realignment


                                                                                                         PAGE 35
              of certain positions and subsequent trans-           During this reporting period, the Hotline
              fer of some employees caused some stress        received almost 9,100 contacts, some of which
              and depression as alleged. Postal Service       were addressed by the OIG in audits and investi-
              district management addressed those con-        gations on issues such as waste, fraud, abuse, mis-
              cerns by meeting with employees.                management, deficient postal operations, per-
              The review substantiated allegations of         sonnel matters, and other concerns. In addition:
              health and safety hazards. The ventila-
                                                              ◆   Twenty-four percent were addressed by
              tion in the mailroom was inadequate for
                                                                  the Inspection Service and involved
              the number of people working in that
                                                                  criminal issues such as mail theft, assaults
              area, and the heating and lighting were
                                                                  and threats, and workers’ compensation
              inadequate in the customer service area.
                                                                  fraud;
              Postal Service’s management relocated
              the employees and services to an area           ◆   Twenty percent were addressed by the
              that was properly ventilated and ade-               Postal Service’s Office of Consumer
              quately cooled, purchased and installed             Advocate involving complaints related to
              additional lighting, and placed space               customer service issues, particularly mail
              heaters in the customer service area.               delivery;
          ◆   The OIG reviewed allegations at a               ◆   Fifty percent were related to miscella-
              Northeast Area Bulk Mail Center regard-             neous requests for information such as
              ing, among other things, supervisory per-           ZIP Codes, postage meters, and other
              sonnel submitting false statements to the           Postal Service-related matters; and
              Postal Service and the Department of            ◆   Nearly 6 percent of Hotline contacts
              Labor Office of Workers’ Compensation               were assigned to OIG staff for further
              Programs. The OIG found that some of                review for fraud, waste, abuse, and mis-
              the statements submitted by a senior                management.
              manager were inaccurate. As a result of
                                                                  Some examples of OIG Hotline work are
              the OIG’s review, Postal Service district
                                                              highlighted here:
              management provided training for the
              senior manager on how to properly chal-         ◆   Based on contacts from postal employees
              lenge workers’ compensation claims.                 alleging that a postal manager created a
                                                                  hostile work environment, Postal Service
          OIG HOTLINE PROVIDES A                                  management contracted for a climate
          VITAL AND CONFIDENTIAL                                  assessment that identified numerous
          COMMUNICATIONS LINK                                     employee concerns specifically related to
               The OIG Hotline provides a vital and con-          this manager. Based on the assessment
          fidential communications link between the               results, the manager was removed from a
          OIG and individuals who contact the Hotline             managerial role and is no longer a
          to report allegations of fraud, waste, abuse, and       supervisor.
          mismanagement.                                      ◆   Post office employees in Kansas alleged
                                                                  that two supervisors created a hostile work
          Responding to Hotline Inquiries
                                                                  environment, and the OIG substantiated
               The Hotline receives complaints from               the allegations against one of those super-
          employees, customers, and the general public            visors. District management conducted
          concerning alleged violations of laws, rules, or        three climate assessments to identify
          regulations; mismanagement; waste of funds;             employee concerns and to ensure those
          abuse of authority; and danger to public health         concerns were being addressed. The final
          and safety. Complaints and allegations received         assessment revealed the climate at this post
          by the Hotline are analyzed to identify systemic        office has improved. Additionally, district
          issues affecting the Postal Service, and are            management is taking steps to improve
          referred for appropriate action. The OIG also           workplace communication by conducting
          considers Hotline contacts when planning                communication work groups that include
          audits and projects.                                    both employees and supervisors.



PAGE 36   CUSTOMER SERVICE
◆   A joint investigation with the Depart-           employee is that someone in the OIG who
    ment of Labor Office of Inspector Gener-         knows the work of the agency will decide
    al revealed a significant number of ques-        whether the employee needs to produce docu-
    tionable billing transactions for the Office     ments or appear in court.
    of Workers’ Compensation Program in
    the Chicago District. The investigation          POSTAL SERVICE POLICIES
    was initiated based on a Hotline allega-
                                                     Comments Regarding Postal Service
    tion received from the Injury Compensa-
                                                     Whistleblower Reprisal Policy                         OIG HOTLINE
    tion Manager for the Northern Illinois
                                                          The OIG worked with the Postal Service to       ◆ Toll-Free, 1-888-USPS-OIG
    District. During this reporting period,
    over $16,000 was recovered, bringing the         strengthen procedures to protect Postal Service        (1-888-877-7644)
    total amount recovered in the case to            employees who allege reprisal after they blow        ◆ TTY (Hearing Impaired)
    over $122,000.                                   the whistle on fraud, waste, and abuse. The            1-866-OIG-TEXT
                                                     Postal Service intends to give the procedures to       (1-866-644-8398)
     The OIG Hotline is staffed from 7 a.m. to                                                            ◆To write to the OIG Hotline:
                                                     unions and management associations for their
5 p.m., Eastern Standard Time, Monday                                                                       ATTN: OIG Hotline
                                                     review soon, and to publish the procedures early
through Friday (except federal holidays). Calls                                                             1735 North Lynn Street
                                                     next year.
can be received 24 hours a day, 7 days a week.                                                              Arlington, VA 22209-2020
Threats and any other potentially violent work       Comments Regarding USPS Purchasing                   ◆To e-mail the OIG Hotline:
situations are routed immediately to the Postal      Manual, Version 3, August 22, 2003                     hotline@uspsoig.gov
Police Control Center for action 24 hours a day            While many of the changes the OIG has          ◆To fax information toll-free:
either by an OIG Hotline analyst or through a        proposed to the Purchasing Manual to prevent           1-866-756-6741
caller-directed menu system. OIG Hotline con-        or reduce fraud have been adopted, the OIG
tact information is provided in the margin to        remains concerned that three weaknesses in cur-
the right.                                           rent postal purchasing procedures need to be
                                                     addressed. Unless these areas are addressed, the
PROPOSED LEGISLATION,
                                                     OIG believes the Postal Service will remain
REGULATIONS, AND POLICIES
                                                     unnecessarily exposed to fraud, waste, and abuse
     As required by the Inspector General Act,
                                                     in its purchasing operations. The three areas are:
the OIG monitors existing and proposed legisla-
tion and regulations to advise Congress and the      Adequate contractor accounting systems. As
Governors of the impact of such legislation and      long as the Postal Service continues to award
regulations on Postal Service programs and           cost type contracts, it must ensure that major
operations. This reporting period, the OIG com-      contractors receiving such contracts have ade-
mented on the following regulation and policies.     quate accounting systems in place to ensure the
                                                     Postal Service is not improperly charged for
REGULATION                                           non-postal costs. Adequate contractor account-
39 CFR Part 230 - Rules governing                    ing systems are clearly a requirement of other
compliance with subpoenas, summonses,                federal, state and local procurement models,
and court orders by postal employees                 and are consistent with the internal control
within the Office of Inspector General               structure now required by federal law for all
where the Postal Service, the United                 publicly traded corporations. OIG audits have
States, or any other federal agency is not           identified problems in important postal con-
a party.                                             tracts that were caused by postal contractors’
     The Postal Service amended the Code of          failure to establish such accounting systems. In
Federal Regulations to establish the rules to gov-   some cases the failure to establish these systems
ern Postal Service OIG compliance with sub-          made the contractors’ claims virtually unau-
poenas, summonses, and court orders where the        ditable, thereby creating an unacceptable risk
Postal Service, the United States, or any other      for the Postal Service.
federal agency is not a party. These new regula-     Suspension and debarment of contractors for
tions ensure the OIG’s control over OIG docu-        fraud. Suspension and debarment are the pri-
ments. The practical advantage for the OIG           mary federal mechanisms to protect the


                                                                                                          PAGE 37
          contracting process from fraudulent contractors.      Manager, Supply Management Infrastructure
          The OIG believes it is essential that the Postal      confirmed that the purchasing staff and the OIG
          Service follow the procedures of other federal        were in substantial agreement and stated that
          agencies in suspending and debarring contrac-         the staff:
          tors for fraud. These procedures provide greater
                                                                ◆   will work to determine how best to incor-
          protection than the postal procedures, and have           porate OIG suggestions regarding con-
          withstood repeated court challenges. While the            tractor accounting systems;
          proposed revisions make certain improvements,
                                                                ◆   is currently drafting new policies for sus-
          they still do not provide adequate protection for
                                                                    pension and debarment incorporating the
          the Postal Service. The procedures set forth in
                                                                    OIG’s suggested changes, including
          the proposed revisions are more cumbersome
                                                                    requiring the offeror to make certifica-
          and time consuming than are necessary and                 tions concerning whether they are cur-
          reflect a role for the Judicial Officer, which is         rently suspended or debarred or under
          inconsistent with the stated Postal Service goal          investigation regarding suspension or
          to make purchasing decisions in a more expedi-            debarment, requiring “higher level”
          tious and business like manner. The OIG                   approval before awarding a contract to a
          believes that the Postal Service will remain              contractor debarred by the General Ser-
          unnecessarily exposed to fraudulent contractors           vices Administration; and
          unless further revisions are made.                    ◆   will make the examination of records
          Critical contract clauses. The OIG believes               clause mandatory in all contracts, and
          two mandatory contract clauses (for contracts             require that any deviations only occur
          over $100,000) must be set forth in the Postal            after consultation with Postal Service
                                                                    counsel and the OIG.
          Service’s Purchasing Manual. First, contractors
          must be required to certify critical information
                                                                FREEDOM OF INFORMATION ACT
          regarding business ethics and integrity and past      REQUESTS
          performance. Such information is routinely
                                                                     The OIG is committed to making all final
          required by other federal, state, and local agen-
                                                                audit and management advisory reports
          cies and will allow postal contracting officials to
                                                                available to the public, except as neccessary to
          make a more informed determination of con-
                                                                protect the Postal Service’s interest. The OIG
          tractor responsibility and capability. Second,
                                                                website, http://www.uspsoig.gov, contains all
          postal contracts should have an adequate access
                                                                releasable final audit and management
          to records clause that will allow Postal Service
                                                                reports.
          officials, including the OIG, to have access to
                                                                     Before posting a report on the website, the
          important contractor books and records. The
                                                                OIG reviews each report in accordance with the
          OIG has identified instances where postal offi-
                                                                Freedom of Information Act, the Privacy Act,
          cials have waived this requirement, or have
                                                                and the Postal Reorganization Act. The OIG
          agreed to significant modifications of the clause
                                                                may coordinate its review with Postal Service
          that would result in the compromise of the
                                                                management and attorneys. In deciding what
          OIG’s ability to conduct audits in accordance
                                                                information to release, the OIG balances the
          with good business practices and professional
                                                                public’s right to access federal agency records
          standards.
                                                                with individual privacy rights as well as the
               The OIG believes that, unless the three
                                                                Postal Service’s need to safeguard certain pro-
          matters set forth above are successfully resolved,
                                                                tected information. As a result, OIG reports may
          weaknesses will remain in postal purchasing pro-
                                                                be withheld in whole or in part to protect priva-
          cedures. In response to the OIG’s continued
                                                                cy as well as proprietary or confidential informa-
          advocacy for the above matters, the Postal Ser-
                                                                tion. The OIG responds to many written
          vice Vice President for Supply Management
                                                                requests for reports and other information under
          concurred with the OIG’s position and directed
                                                                the Freedom of Information Act. As of July 15,
          his staff to work toward the implementation of
                                                                2002, the OIG began deciding all OIG-related
          OIG proposals. On September 29, 2003, the
                                                                Freedom of Information Act appeals to more


PAGE 38   CUSTOMER SERVICE
efficiently safeguard individual privacy and sen-    the information sought is reasonably relevant to
sitive OIG information while ensuring maxi-          the agency’s inquiry, and the demand is not
mum access. Freedom of Information Act               unduly burdensome.
appeals are handled by the OIG Legal Services             Since its inception, the OIG has been suc-
Team and such authority is outlined under Title      cessful in enforcing every subpoena that has
39 Code of Federal Regulations § 230.5(e).           been challenged in court. Subpoena requests
      In this reporting period, the OIG processed    undergo a rigorous review process. The review is
61 Freedom of Information Act requests.              comprehensive in terms of scope of review, level
                                                     of supervisory review, and signature authority.
INSPECTOR GENERAL
                                                     All subpoenas are processed at OIG headquar-
SUBPOENAS
                                                     ters and undergo thorough, progressive inves-
     Pursuant to the Inspector General Act, the
                                                     tigative and legal reviews. The subpoena process    FREEDOM OF INFORMATION ACT REQUESTS
Inspector General is authorized to issue subpoe-
                                                     requires OIG special agents and Postal Inspec-         For the period April 1, 2003, through
nas for audits and investigations for which the                                                                      September 30, 2003
                                                     tors to submit a written justification with their
OIG has jurisdiction. This includes authority to
                                                     subpoena request. After supervisory review, the     OIG                                    Number of
issue subpoenas in support of certain investiga-
                                                     OIG legal staff evaluates each subpoena to          Actions                                 Requests
tions of the Inspection Service. An Inspector
                                                     ensure the subpoena can withstand a legal chal-
General subpoena is a valuable audit and inves-                                                          Carryover from prior period                   8
                                                     lenge. The General Counsel signs the subpoe-
tigative tool. It enables the OIG to secure docu-                                                        Received during the period                   58
                                                     nas. This reporting period, the OIG issued 168
mentary information and evidence that, unlike                                                             Total on hand during the period             66
                                                     subpoenas.
grand jury subpoenas, can be readily used in civil                                                       Processed during the period
                                                          During this reporting period, OIG Legal
and administrative proceedings, as well as crim-                                                            Released                                   30
                                                     Services launched an electronic subpoena pro-
inal cases.                                                                                                 Withheld                                    9
                                                     cessing system. The system is for use by OIG
     Inspector General subpoenas are not self-                                                              Referred to Postal Service
                                                     investigative and legal staff. The system is
enforcing. If a subpoena is not complied with,                                                               or other agency                          17
                                                     designed to streamline the process of creating a
OIG attorneys and special agents and Postal                                                                 Otherwise closed*                          5
                                                     subpoena request and submitting it for review
Inspectors first attempt to negotiate with the                                                            Total processed during the period           61
                                                     and approval. Legal Services has had great suc-
subpoena recipient to obtain the requested doc-                                                          Balance at end of the period (Pending)        5
                                                     cess in processing subpoena requests expedi-
uments. If this is not successful, the OIG seeks
                                                     tiously using this new system and plans to offer
enforcement in United States district court. The                                                         *Otherwise closed includes no responsive documents,
                                                     its use to the Postal Inspection Service in the     improper requests, requests withdrawn, etc.
courts generally enforce the subpoena as long as
                                                     near future.
the inquiry is within the authority of the agency,

                                                                                                         FREEDOM OF INFORMATION ACT APPEALS
                                                                                                            For the period April 1, 2003, through
                                                                                                                     September 30, 2003

                                                                                                         OIG                                   Number of
                                                                                                         Actions                                 Appeals

                                                                                                         Total appealed                                 5
                                                                                                         Total upheld                                   4
                                                                                                         Total denied                                   1




                                                                                                         PAGE 39
PAGE 40   CUSTOMER SERVICE
                                                          The OIG begins its strategic planning




                                                                                                                    Goals and Strategies
GOALS AND                                           process by determining the major management
STRATEGIES                                          issues facing the Postal Service. The OIG then
                                                    assesses Postal Service operations and activities,
STRATEGIC GOALS                                     broadly defines realistic goals, sets priorities in
     In March 2001, the OIG published a             line with the Postal Service business vision, and
revised Five-Year Strategic Plan for FYs 2001-      develops effective strategies and action plans
2005. Each aspect of this plan is in accordance     that align the OIG’s activities to best help the
with the President’s management agenda and          Postal Service improve its effectiveness and effi-
the principles of the Government Performance        ciency. The OIG then measures progress in
and Results Act. The OIG’s strategic plan is        meeting those goals; and updates and revises
outcome-oriented and focuses on the funda-          goals, strategies, and performance measures to
mental mission to increase the efficiency and       continually align its efforts with the changing
effectiveness of Postal Service programs and        business needs of the Postal Service.
operations, while eliminating and preventing              The OIG’s current strategic plan identified
fraud, waste, abuse, and mismanagement. This        two goals: to provide timely, accurate, and use-
plan was designed to address the strategic direc-   ful information that contributes to the efficien-
tion and objectives outlined in the Postal Ser-     cy and effectiveness of the Postal Service; and
vice’s Strategic Plan for FYs 2001-2005, which      to maximize resources and leverage cutting-
reflected a growing uncertainty about the           edge technology in support of its mission. The
impact of emerging technologies, changing cus-      OIG strategic plan will be updated during FY
tomer requirements, and competitors’ actions        2004 to reflect new organizational leadership
on mail volume and postal revenues.                 and focus.




                                                                                                          PAGE 41
PAGE 42
                                                          Office of Inspector General




                                                                                                                       Office of Inspector General Organizational Structure
                                         INSPECTOR
                                          GENERAL
                                                          Organizational Structure

                                           DEPUTY
                                         INSPECTOR
                                          GENERAL




                                                          SPECIAL
                                                         PROJECTS




   GENERAL        AIG INTERNAL                       AIG                                  AIG AUDIT
   COUNSEL          BUSINESS                   INVESTIGATIONS




                        STRATEGIC      DEPUTY AIG       DEPUTY AIG     INVESTIGATIVE
                       ENFORCEMENT   INVESTIGATIONS   INVESTIGATIONS    OPERATIONS




                                       CONTRACT           SPECIAL                                          AUDIT
                                         FRAUD           INQUIRIES                                       OPERATIONS




                                                                         DEPUTY AIG      DEPUTY AIG       DEPUTY AIG
  DEPUTY           DEPUTY AIG           ATLANTA          TECHNICAL
                                                                         FINANCIAL      OPERATIONS &     TECHNOLOGY,
  GENERAL           INTERNAL          FIELD OFFICE      CRIMES UNIT
                                                                           MGMT.           HUMAN         MARKETING &
  COUNSEL            BUSINESS
                                                                                          CAPITAL         OVERSIGHT



                                         BOSTON            DALLAS                        NETWORK         INSPECTION
                    HUMAN                                                 FINANCIAL
LEGAL SERVICES                        FIELD OFFICE      FIELD OFFICE                    OPERATIONS-        SERVICE
                   RESOURCES                                             STATEMENTS
                                                                                        PROCESSING       OVERSIGHT




CONGRESSIONAL                          NEW YORK            DENVER                        NETWORK
                 ADMINISTRATIVE                                          FINANCIAL
    FOIA &                            FIELD OFFICE      FIELD OFFICE                    OPERATIONS-      ENGINEERING
                    SERVICES                                                FIELD
   HOTLINE                                                                               LOGISTICS



                                                                            SUPPLY
                                      PHILADELPHIA      LOS ANGELES                       HUMAN
                  INVESTMENTS                                           MANAGEMENT                       MARKETING
                                       FIELD OFFICE     FIELD OFFICE                      CAPITAL
                                                                         & FACILITIES




                                      WASHINGTON          ST. LOUIS                      DELIVERY &      INFORMATION
                  PERFORMANCE         FIELD OFFICE      FIELD OFFICE                       RETAIL           SYSTEMS




                  INFORMATION                                                                             STRATEGY &
                  TECHNOLOGY                                                                             PERFORMANCE




                                                                                               PAGE 43
PAGE 44
APPENDIX A




                                                                                                                                              Appendices
Reports Issued to Postal Service Management
For the period April 1, 2003, through September 30, 2003

OVERVIEW
Office of Inspector General
The OIG audit teams are aligned to conduct performance and financial audits, evaluations and
other reviews to address the business processes of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of
the project.



SUMMARY
The following is a summary by principal area of reports issued to Postal Service management.
The following pages list each issued report.

                  Number of                                  Recommend                     Additional
                    Reports     Questioned   Unsupported    Funds Put to   Unrecoverable    Potential
Principal Area       Issued          Costs        Costs1      Better Use           Costs    Revenue
Performance             14              $0            $0   $179,020,474      $1,124,000          $0
Financial Management   258     $69,963,257    $8,499,479        $90,535          $1,000    $105,161
Technology              14              $0            $0             $0              $0          $0
Labor Management         5              $0            $0             $0              $0          $0
Oversight                5              $0            $0             $0              $0          $0

Grand Total            296    $69,963,257    $8,499,479 $179,111,009        $1,125,000     $105,161



                                                                                                        Definitions
                                                                                                        Questioned Costs -
                                                                                                        A cost that is unnecessary,
                                                                                                        unreasonable, unsupported,
                                                                                                        or an alleged violation of law,
                                                                                                        regulation, contract, etc.
                                                                                                        Unsupported Costs -
                                                                                                        A cost that is not supported
                                                                                                        by adequate documentation.
                                                                                                        Funds Put to Better Use -
                                                                                                        Funds that could be used more
                                                                                                        efficiently by implementing
                                                                                                        recommended actions.
                                                                                                        Unrecoverable Costs -
                                                                                                        A cost that perhaps should not
                                                                                                        have been incurred and is not
                                                                                                        recoverable.
                                                                                                        Potential Additional Revenue -
                                                                                                        Amounts from revenue
                                                                                                        generating functions such as
                                                                                                        retail sales, rent, leases, or fees
                                                                                                        that were underpaid or not
                                                                                                        realized.



1 Unsupported Costs are included with the amounts shown as Questioned Costs.
2 Represents potential additional revenue.
3 Represents unrecoverable costs.

                                                                                                          PAGE 45
          REPORT LISTING
          The following is a list of each report grouped by core business processes and enabling functions.

          PERFORMANCE
                                                                                          Recommend
          Report          Subject Title/                     Questioned    Unsupported   Funds Put to                   Issue
          Number          Project Type                            Costs          Costs     Better Use         Other      Date
           ACCEPTING AND PROCESSING
          AC-AR-03-006       Enhanced Carrier Route Standard         $0            $0             $0            $0    9/29/03
                             Mail Worksharing Discounts
          AC-AR-03-007       Inventory Management -                  $0            $0 $131,148,139              $0    9/30/03
                             Maintenance Stockrooms
          AO-AR-03-001       Efficiency of Work Performed by         $0            $0     $9,256,376            $0    7/31/03
                             Business Mail Entry Clerks Within
                             the Los Angeles District
          AO-AR-03-002       Efficiency of Work Performed by        $0             $0     $6,963,499            $0    9/25/03
                             Business Mail Entry Clerks at the
                             San Francisco Business Mail Entry Unit
          AO-MA-03-001 (R ) Enforcement of Export Controls           $0            $0             $0            $0    4/17/03
          MARKETING
          OE-AR-03-004       Mail Recovery Center Auctions           $0            $0             $0            $0    5/13/03
          OE-AR-03-005       Postal Service Postmark America Store $0              $0             $0            $0    7/31/03
          OE-MA-03-006       Follow-up Review of the Citizens’       $0            $0             $0            $0     8/4/03
                             Stamp Advisory Committee
          TRANSPORTATION AND DELIVERY
          TD-AR-03-010       Highway Network Scheduling -            $0            $0     $5,989,082            $0    7/11/03
                             Southwest Area
          TD-AR-03-011       City Carrier Productivity - Letter       $0           $0             $0            $0    7/28/03
                             Carrier Delays in the Baltimore District
          TD-AR-03-012       Voyager Card Control Weaknesses -       $0            $0     $1,011,600    $1,124,0002    9/8/03
                             National Analysis
          TD-AR-03-013       Highway Network Scheduling -            $0            $0     $2,721,530            $0    9/23/03
                             Western Area
          TD-AR-03-014       Highway Network Scheduling -            $0            $0    $11,352,881            $0    9/26/03
                             Southeast Area
          TD-AR-03-015       Highway Network Scheduling -            $0            $0    $10,577,367            $0    9/30/03
                             Eastern Area
          PERFORMANCE TOTALS                                         $0            $0 $179,020,474      $1,124,000


          FINANCIAL MANAGEMENT
                                                                                          Recommend
          Report              Subject Title/                 Questioned    Unsupported   Funds Put to                   Issue
          Number              Project Type                        Costs          Costs     Better Use         Other      Date

          FISCAL YEAR 2003 FINANCIAL INSTALLATION AUDITS
          FF-AR-03-152       Memphis Business Mail Entry Unit        $0            $0             $0            $0     4/8/03
          FF-AR-03-154       Vincennes Business Mail Entry Unit      $0            $0             $0            $0     4/8/03
          FF-AR-03-157       Colleyville Self-Service Postal Center $0             $0             $0            $0     4/8/03
          FF-AR-03-158       Milwaukee Business Mail Entry Unit      $0            $0             $0            $0     4/8/03
          FF-AR-03-161       Fort Worth Business Mail Entry Unit     $0            $0             $0            $0     4/8/03
          FF-AR-03-163       Hammond Business Mail Entry Unit        $0            $0             $0            $0     4/8/03
          FF-AR-03-164       New Brunswick Business Mail             $0            $0             $0            $0     4/8/03
                             Entry Unit
          FF-AR-03-165       Farmingdale Business Mail Entry Unit $0               $0             $0            $0     4/8/03
          FF-AR-03-170       Fort McNair Station                     $0            $0             $0            $0    4/10/03


PAGE 46   APPENDICES
                                                                              Recommend
Report         Subject Title/                     Questioned   Unsupported   Funds Put to               Issue
Number         Project Type                            Costs         Costs     Better Use     Other      Date
FF-AR-03-175   Fort Worth Stamp Distribution and         $0            $0             $0        $0    4/10/03
               District Accounting Offices
FF-AR-03-177   Irvine Business Mail Entry Unit           $0            $0             $0        $0    4/10/03
FF-AR-03-171   Hollywood Self-Service Postal Center $0                 $0             $0        $0    4/11/03
FF-AR-03-166   New Ringgold Post Office                  $0            $0             $0        $0    4/15/03
FF-AR-03-169   Valley Forge Business Mail Entry Unit $0                $0             $0        $0    4/15/03
FF-AR-03-172   Phoenix Main Window Office                $0            $0             $0        $0    4/15/03
FF-AR-03-173   Tontitown Post Office                     $0            $0             $0        $0    4/15/03
FF-AR-03-180   Rydal Branch                              $0            $0             $0        $0    4/17/03
FF-AR-03-097   Moneta Post Office                        $0            $0             $0        $0    4/24/03
FF-AR-03-174   Ellinwood Post Office                     $0            $0             $0        $0    4/24/03
FF-AR-03-176   Hollins College Branch                    $0            $0             $0        $0    4/24/03
FF-AR-03-178   Piney Woods Post Office                   $0            $0             $0        $0    4/24/03
FF-AR-03-192   Worth Business Mail Entry Unit            $0            $0             $0        $0    4/24/03
FF-AR-03-130   Simi Valley Business Mail Entry Unit      $0            $0             $0        $0    4/30/03
FF-AR-03-150   Garden Grove Business Mail Entry          $0            $0             $0        $0    4/30/03
               Unit
FF-AR-03-205   Baton Rouge Business Mail Entry Unit $0                 $0             $0        $0    4/30/03
FF-AR-03-153   Lynchburg Business Mail Entry Unit        $0            $0             $0        $0     5/2/03
FF-AR-03-160   Klander Self-Service Postal Center        $0            $0             $0        $0     5/2/03
FF-AR-03-185   Holland Branch Contract Postal Unit $0                  $0             $0        $0     5/2/03
FF-AR-03-183   Swedesboro Business Mail Entry Unit $0                  $0             $0        $0     5/7/03
FF-AR-03-197   Fort Worth Post Office                    $0            $0             $0        $0     5/7/03
FF-AR-03-200   Wilsonville Business Mail Entry Unit      $0            $0             $0        $0     5/7/03
FF-AR-03-208   Seattle Business Mail Entry Unit          $0            $0             $0        $0     5/8/03
FF-AR-03-213   Parkway Drug Contract Postal Unit         $0            $0             $0        $0     5/8/03
FF-AR-03-215   Fort Lauderdale Business Mail Entry       $0            $0             $0        $0     5/8/03
               Unit
FF-AR-03-207   Los Angeles Main Post Office              $0            $0             $0        $0    5/13/03
FF-AR-03-182   John A. Farley Business Mail Entry        $0            $0             $0        $0    5/14/03
               Unit
FF-AR-03-187   Omaha Business Mail Entry Unit            $0            $0             $0        $0    5/14/03
FF-AR-03-188   Indianapolis Self-Service Postal          $0            $0             $0        $0    5/14/03
               Center #4
FF-AR-03-202   Yazoo City Business Mail Entry Unit       $0            $0             $0        $0    5/14/03
FF-AR-03-204   Royal Oak Business Mail Entry Unit        $0            $0             $0    $1,0002
                                                                                                      5/14/03
FF-AR-03-193   Lenoir Business Mail Entry Unit           $0            $0             $0        $0    5/16/03
FF-AR-03-199   Columbus Business Mail Entry Unit         $0            $0             $0        $0    5/16/03
FF-AR-03-201   Cleveland Main Office Window              $0            $0             $0        $0    5/16/03
               Service
FF-AR-03-212   Williamstown Post Office                  $0            $0             $0    $1,2003   5/16/03
FF-AR-03-214   Downers Grove Post Office                 $0            $0             $0        $0    5/16/03
FF-AR-03-226   Portland Main Post Office                 $0            $0             $0        $0    5/16/03
FF-AR-03-224   Kent Main Post Office                     $0            $0             $0        $0    5/20/03
FF-AR-03-242   Alameda Station                           $0            $0             $0        $0    5/20/03
FF-AR-03-244   Reno Self-Service Postal Center           $0            $0             $0        $0    5/20/03
FF-AR-03 229   Fayetteville Self-Service Postal Center $0              $0             $0        $0    5/21/03
FF-AR-03-206   Hatboro Main Post Office                  $0            $0             $0        $0    5/21/03
FF-AR-03-209   Dyer Post Office                          $0            $0             $0        $0    5/21/03
FF-AR-03-228   Hazleton Post Office                      $0            $0             $0        $0    5/21/03
FF-AR-03-240   Cincinnati Self-Service Postal Center $0                $0             $0        $0    5/21/03

                                                                                                                PAGE 47
                                                                                        Recommend
          Report         Subject Title/                     Questioned   Unsupported   Funds Put to             Issue
          Number         Project Type                            Costs         Costs     Better Use   Other      Date
          FF-AR-03-189   Salt Lake City Business Mail Entry        $0            $0             $0      $0    5/22/03
                         Center #4
          FF-AR-03-217   Mariners Harbor Post Office               $0            $0             $0      $0    5/22/03
          FF-AR-03-218   Sun Valley Station                        $0            $0             $0      $0    5/22/03
          FF-AR-03-220   Scottsdale Self-Service Postal Center     $0            $0             $0      $0    5/22/03
          FF-AR-03-221   Salt Lake City Main Post Office           $0            $0             $0      $0    5/22/03
          FF-AR-03-233   West Caldwell Post Office                 $0            $0             $0      $0    5/22/03
          FF-AR-03-235   Southside Station                         $0            $0             $0      $0    5/22/03
          FF-AR-03-211   Hartford Main Post Office                 $0            $0             $0      $0    5/23/03
          FF-AR-03-222   Eagle Station                             $0            $0             $0      $0    5/23/03
          FF-AR-03-225   Gaines Post Office                        $0            $0             $0      $0    5/23/03
          FF-AR-03-232   Glendale Self-Service Postal Center       $0            $0             $0      $0    5/23/03
          FF-AR-03-246   Annandale Business Mail Entry Unit        $0            $0             $0      $0    5/23/03
                         Service
          FF-AR-03-190   Indianapolis Main Office Window           $0            $0             $0      $0    5/28/03
          FF-AR-03-223   Ford Pharmacy Contract Postal Unit        $0            $0             $0      $0    5/28/03
          FF-AR-03-227   Tucson Davis Monthan Post Office          $0            $0             $0      $0    5/28/03
          FF-AR-03-230   Brookfield Business Mail Entry Unit       $0            $0             $0      $0    5/28/03
          FF-AR-03-237   Reading Business Mail Entry Unit          $0            $0             $0      $0    5/28/03
          FF-AR-03-239   Pattonsburg Post Office                   $0            $0             $0      $0    5/28/03
          FF-AR-03-243   Atlanta Stamp Distribution and            $0            $0             $0      $0    5/28/03
                         District Accounting Offices
          FF-AR-03-245   Illinois Institute of Technology          $0            $0             $0      $0    5/28/03
                         Contract Postal Unit #50
          FF-AR-03-231   McClellanville Post Office                $0            $0             $0      $0    5/29/03
          FF-AR-03-234   Houston Business Mail Entry Unit          $0            $0             $0      $0    5/29/03
          FF-AR-03-236   Nashville Stamp Distribution Office       $0            $0             $0      $0    5/29/03
                         and Tennessee District Accounting
                         Office
          FF-AR-03-241   White Plains Stamp Distribution           $0            $0             $0      $0    5/29/03
                         Office and Westchester District
                         Accounting Office
          FF-AR-03-251   Brandon Business Mail Entry Unit          $0            $0             $0      $0    5/29/03
          FF-AR-03-184   Santa Ana Business Mail Entry Unit        $0            $0             $0      $0     6/5/03
          FF-AR-03-186   Woodland Hills Post Office                $0            $0             $0      $0     6/5/03
          FF-AR-03-247   Pleasantville Post Office                 $0            $0             $0      $0     6/5/03
          FF-AR-03-248   Riceboro Post Office                      $0            $0             $0      $0     6/5/03
          FF-AR-03-250   Jamestown Business Mail Entry Unit        $0            $0             $0      $0     6/5/03
          FF-AR-03-252   Cincinnati Business Mail Entry Unit       $0            $0             $0      $0    6/10/03
          FF-AR-03-263   Myrtle Beach Main Post Office             $0            $0             $0      $0    6/10/03
          FF-AR-03-253   Naperville Business Mail Entry Unit       $0            $0             $0      $0    6/18/03
          FF-AR-03-258   Portal Post Office                        $0            $0             $0      $0    6/18/03
          FF-AR-03-260   Otoe Post Office                          $0            $0             $0      $0    6/18/03
          FF-AR-03-255   Newburgh Business Mail Entry Unit         $0            $0             $0      $0    6/19/03
          FF-AR-03-259   Hicksville Post Office                    $0            $0             $0      $0    6/19/03
          FF-AR-03-257   Worth Post Office                         $0            $0             $0      $0    6/24/03
          FF-AR-03-219   Chicago Cardiss Collins Postal Store      $0            $0             $0      $0    6/25/03
          FF-AR-03-272   Columbia Falls Business Mail Entry        $0            $0             $0      $0    6/25/03
                         Unit
          FF-AR-03-282   Jersey City Main Office                   $0            $0             $0      $0    6/25/03
          FF-AR-03-271   Pearland Business Mail Entry Unit         $0            $0             $0      $0    6/26/03
          FF-AR-03-273   Indianapolis Stamp Distribution Office $0               $0             $0      $0    6/26/03

PAGE 48   APPENDICES
                                                                            Recommend
Report         Subject Title/                   Questioned   Unsupported   Funds Put to                Issue
Number         Project Type                          Costs         Costs     Better Use      Other      Date
FF-AR-03-274   Greenville Business Mail Entry Unit     $0            $0             $0         $0    6/26/03
FF-AR-03-283   Denver Business Mail Entry Unit         $0            $0             $0         $0    6/26/03
FF-AR-03-261   Nevada Business Mail Entry Unit         $0            $0             $0         $0     7/1/03
FF-AR-03-268   The Photory Contract Postal Unit        $0            $0             $0         $0     7/1/03
FF-AR-03-275   Cherokee Business Mail Entry Unit       $0            $0             $0         $0     7/1/03
FF-AR-03-284   Mount Morris Business Mail Entry        $0            $0             $0         $0     7/1/03
               Unit
FF-AR-03-285   Richmond Main Post Office               $0            $0             $0    $22,5243    7/1/03
               Windows Operations
FF-AR-03-277   Milwaukee Stamp Distribution Office $0                $0             $0         $0     7/2/03
FF-AR-03-278   Manchester Stamp Distribution Office $0               $0             $0         $0     7/2/03
FF-AR-03-280   Des Moines Business Mail Entry Unit $0                $0             $0         $0     7/2/03
FF-AR-03-254   Ocean Beach Station                     $0            $0             $0         $0     7/3/03
FF-AR-03-256   Gustine Post Office                     $0            $0             $0         $0     7/3/03
FF-AR-03-262   Folsom Business Mail Entry Unit         $0            $0             $0         $0     7/3/03
FF-AR-03-238   Fenton Business Mail Entry Unit         $0            $0             $0         $0     7/7/03
FF-AR-03-287   Denver Downtown Post Office             $0            $0             $0         $0     7/7/03
FF-AR-03-168   Waite Park Business Mail Entry Unit     $0            $0             $0         $0    7/10/03
FF-AR-03-181   Wyaconda Post Office                    $0            $0             $0         $0    7/10/03
FF-AR-03-203   Minneapolis Business Mail Entry Unit $0               $0             $0         $0    7/10/03
FF-AR-03-267   Clarkson Contract Postal Unit           $0            $0             $0         $0    7/10/03
FF-AR-03-279   Arcadia Post Office                     $0            $0             $0         $0    7/10/03
FF-AR-03-286   Edison Post Office                      $0            $0             $0         $0    7/10/03
FF-AR-03-281   Holly Post Office                       $0            $0             $0         $0    7/11/03
FF-AR-03-288   Wallace Post Office                     $0            $0             $0         $0    7/11/03
FF-AR-03-191   Ventura Main Post Office                $0            $0             $0         $0    7/15/03
FF-AR-03-196   Margaret L. Sellers Main Post Office    $0            $0             $0         $0    7/15/03
FF-AR-03-295   New York Main Office                    $0            $0             $0    $38,4763   7/15/03
FF-AR-03-198   Mundelein Business Mail Entry Unit      $0            $0             $0         $0    7/16/03
FF-AR-03-300   Cedar Elm Self-Service Postal Center $0               $0             $0         $0    7/17/03
FF-AR-03-302   Huntington Business Mail Entry Unit $0                $0             $0         $0    7/17/03
FF-AR-03-292   Little Rock Stamp Distribution Office $0              $0             $0         $0    7/22/03
               and Arkansas District Accounting
               Office
FF-AR-03-297   Stockton Self-Service Postal Center     $0            $0             $0         $0    7/22/03
FF-AR-03-299   Captain Video Contract Postal Unit      $0            $0             $0         $0    7/22/03
FF-AR-03-301   Farmingdale Post Office                 $0            $0             $0         $0    7/22/03
FF-AR-03-308   South Hackensack Branch                 $0            $0             $0         $0    7/24/03
FF-AR-03-304   Oklahoma City Self-Service              $0            $0             $0         $0    7/25/03
               Postal Center #78
FF-AR-03-311   Baxter Contract Postal Unit             $0            $0             $0         $0    7/29/03
FF-AR-03-313   Berea Business Mail Entry Unit          $0            $0             $0         $0    7/29/03
FF-AR-03-316   West Haven Contract Postal Unit         $0            $0             $0         $0    7/29/03
FF-AR-03-294   Festus Post Office                      $0            $0             $0         $0    7/31/03
FF-AR-03-298   Winder Post Office                      $0            $0             $0         $0    7/31/03
FF-AR-03-315   Oklahoma City Self-Service Postal       $0            $0             $0         $0    7/31/03
               Center #77
FF-AR-03-249   Wausau Business Mail Entry Unit         $0            $0             $0         $0     8/1/03
FF-AR-03-290   Lake Saint George Contract              $0            $0             $0         $0     8/1/03
               Postal Unit
FF-AR-03-293   Green Bay Business Mail Entry Unit      $0            $0             $0         $0     8/1/03

                                                                                                               PAGE 49
                                                                                       Recommend
          Report         Subject Title/                    Questioned   Unsupported   Funds Put to                Issue
          Number         Project Type                           Costs         Costs     Better Use      Other      Date
          FF-AR-03-296   Corpus Christi Self-Service Postal       $0            $0             $0         $0     8/1/03
                         Center
          FF-AR-03-303   Texarkana Self-Service Postal Center     $0            $0             $0         $0     8/1/03
          FF-AR-03-310   Casper Downtown Station                  $0            $0             $0         $0     8/1/03
          FF-AR-03-305   Scranton Post Office                     $0            $0             $0         $0     8/5/03
          FF-AR-03-306   Station A                                $0            $0             $0         $0     8/5/03
          FF-AR-03-309   Phoenix Stamp Distribution Office        $0            $0             $0         $0     8/7/03
                         and Arizona District Accounting
                         Office
          FF-AR-03-322   West Sacramento Business Mail Entry $0                 $0             $0         $0     8/7/03
                         Unit
          FF-AR-03-323   Boise Stamp Distribution Office and      $0            $0             $0         $0     8/7/03
                         Spokane District Accounting Office
          FF-AR-03-314   Farr’s Stationers Contract Postal Unit $0              $0             $0         $0     8/8/03
          FF-AR-03-338   Merrifield Post Office                   $0            $0             $0    $19,4493    8/8/03
          FF-AR-03-336   Las Vegas Business Mail Entry Unit       $0            $0             $0         $0    8/12/03
          FF-AR-03-317   Sycamore Post Office                     $0            $0             $0         $0    8/13/03
          FF-AR-03-332   Midtown Station                          $0            $0             $0     $1,0473   8/13/03
          FF-AR-03-333   Pittsburgh Stamp Distribution Office     $0            $0             $0         $0    8/13/03
          FF-AR-03-307   Kayenta Post Office                      $0            $0             $0         $0    8/14/03
          FF-AR-03-312   Avon Park Main Office                    $0            $0             $0         $0    8/14/03
          FF-AR-03-342   Tampa Business Mail Entry Unit           $0            $0             $0         $0    8/14/03
          FF-AR-03-324   Eastside Station Post Office             $0            $0             $0         $0    8/12/03
          FF-AR-03-325   Memphis Self-Service                     $0            $0             $0         $0    8/19/03
                         Postal Center #70
          FF-AR-03-331   Oakland Stamp Distribution Office        $0            $0             $0         $0    8/19/03
          FF-AR-03-335   Albuquerque Business Mail Entry          $0            $0             $0         $0    8/19/03
                         Unit
          FF-AR-03-339   Charlotte Business Mail Entry Unit       $0            $0             $0         $0    8/19/03
          FF-AR-03-326   Decatur Self-Service Postal Center       $0            $0             $0         $0    8/20/03
          FF-AR-03-327   Boring Post Office                       $0            $0             $0         $0    8/20/03
          FF-AR-03-329   Tahoe Valley Station                     $0            $0             $0         $0    8/20/03
          FF-AR-03-337   Boyd’s Pharmacy Station #4               $0            $0             $0         $0     8/20/0
                         Contract Postal Unit
          FF-AR-03-340   Duluth Self-Service Postal Center        $0            $0             $0         $0    8/20/03
          FF-AR-03-344   Arispe Main Post Office                  $0            $0             $0         $0    8/20/03
          FF-AR-03-350   Nikiski Contract Postal Unit             $0            $0             $0         $0    8/20/03
          FF-AR-03-351   Nenana Post Office                       $0            $0             $0         $0    8/20/03
          FF-AR-03-328   Valentine Agency Contract                $0            $0             $0         $0    8/21/03
                         Postal Unit
          FF-AR-03-330   Dubuque Main Post Office                 $0            $0             $0     $1,9803   8/21/03
          FF-AR-03-334   Warsaw Business Mail Entry Unit          $0            $0             $0         $0    8/21/03
          FF-AR-03-345   Leadville Post Office                    $0            $0             $0         $0    8/21/03
          FF-AR-03-348   Dulles Business Mail Entry Unit          $0            $0             $0         $0    8/21/03
          FF-AR-03-346   Marion Post Office                       $0            $0             $0     $4,8653   8/26/03
          FF-AR-03-352   Houston Post Office                      $0            $0             $0         $0    8/26/03
          FF-AR-03-357   Avon Lake Post Office                    $0            $0             $0     $2,2203   8/26/03
          FF-AR-03-343   Carabella Post Office                    $0            $0             $0         $0     9/2/03
          FF-AR-03-354   Amherst Branch                           $0            $0             $0         $0     9/2/03
          FF-AR-03-356   Southern Maryland Business               $0            $0             $0         $0     9/2/03
                         Mail Entry Unit


PAGE 50   APPENDICES
                                                                              Recommend
Report         Subject Title/                     Questioned   Unsupported   Funds Put to               Issue
Number         Project Type                            Costs         Costs     Better Use     Other      Date
FF-AR-03-355   Mount Pleasant Business Mail              $0            $0             $0        $0     9/4/03
               Entry Unit
FF-AR-03-353   Chimacum Main Post Office                 $0            $0             $0        $0     9/5/03
FF-AR-03-358   Atlanta Business Mail Entry Unit          $0            $0             $0        $0     9/5/03
FF-AR-03-363   Paauilo Post Office                       $0            $0             $0        $0    9/11/03
FF-AR-03-361   Wilmington Post Office                    $0            $0             $0        $0    9/12/03
FF-AR-03-349   Escondido Business Mail Entry Unit        $0            $0             $0        $0    9/23/03
FF-AR-03-360   Executive Office Products Contract        $0            $0             $0        $0    9/23/03
               Postal Unit
FF-AR-03-365   Hillcrest Station                         $0            $0             $0        $0    9/23/03
FF-AR-03-347   Wilmington Business Mail Entry Unit $0                  $0             $0        $0    9/24/03
FF-AR-03-366   Calumet Main Office                       $0            $0             $0        $0    9/24/03
FF-AR-03-367   Columbus Main Office                      $0            $0             $0        $0    9/24/03
FF-AR-03-371   Philadelphia Business Mail Entry Unit $0                $0             $0        $0    9/29/03
FF-AR-03-372   Honolulu Business Mail Entry Unit         $0            $0             $0        $0    9/29/03
FF-AR-03-359   Lansing Main Office Window                $0            $0             $0    $8,4153   9/30/03
FF-AR-03-364   Fox Creek Station                         $0            $0             $0    $1,6393   9/30/03
FF-AR-03-368   Mira Vista Station                        $0            $0             $0        $0    9/30/03
FF-AR-03-369   General Mail Facility Finance Station $0                $0             $0    $3,3463   9/30/03
FF-AR-03-370   San Juan Stamp Distribution Office        $0            $0             $0        $0    9/30/03
FINANCIAL RELATED
FF-AR-03-167   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0     4/8/03
               Year 2003 Cost and Revenue
               Analysis - Albuquerque District
FF-AR-03-179   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    4/11/03
               Year 2003 Cost and Revenue
               Analysis - Greater Indiana District
FF-AR-03-194   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    4/29/03
               Year 2003 Cost and Revenue
               Analysis - South Florida District
FF-AR-03-195   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    4/29/03
               Year 2003 Cost and Revenue
               Analysis - Spokane District
FF-AR-03-210   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0     5/8/03
               Year 2003 Cost and Revenue
               Analysis - South Georgia District
FF-AR-03-216   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0     5/8/03
               Year 2003 Cost and Revenue
               Analysis - New Hampshire District
FF-AR-03-264   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    6/18/03
               Year 2003 Cost and Revenue
               Analysis - Alabama District
FF-AR-03-265   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    6/18/03
               Year 2003 Cost and Revenue
               Analysis - Louisiana District
FF-AR-03-266   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    6/18/03
               Year 2003 Cost and Revenue
               Analysis - Boston District
FF-AR-03-269   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    6/23/03
               Year 2003 Cost and Revenue
               Analysis - Arkansas District
FF-AR-03-270   Audit of Statistical Tests for Fiscal     $0            $0             $0        $0    6/23/03
               Year 2003 Cost and Revenue
               Analysis - Mid-America District



                                                                                                                PAGE 51
                                                                                           Recommend
          Report          Subject Title/                     Questioned     Unsupported   Funds Put to             Issue
          Number          Project Type                            Costs           Costs     Better Use   Other      Date
          FF-AR-03-276    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    6/25/03
                          Year 2003 Cost and Revenue
                          Analysis - Columbus District
          FF-AR-03-289    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0     7/9/03
                          Year 2003 Cost and Revenue
                          Analysis - Oklahoma District
          FF-AR-03-291    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0     7/9/03
                          Year 2003 Cost and Revenue
                          Analysis - Dakotas District
          FF-AR-03-318    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    7/29/03
                          Year 2003 Cost and Revenue
                          Analysis - Triboro District
          FF-AR-03-319    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    7/29/03
                          Year 2003 Cost and Revenue
                          Analysis - Middlesex-Central District
          FF-AR-03-320    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    7/29/03
                          Year 2003 Cost and Revenue
                          Analysis - Maine District
          FF-AR-03-321    Audit of Statistical Tests for Fiscal $0                  $0             $0      $0    7/29/03
                          Year 2003 Cost and Revenue
                          Analysis - Western New York District
          FF-AR-03-341    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    8/12/03
                          Year 2003 Cost and Revenue
                          Analysis - Honolulu District
          FF-AR-03-362    Audit of Statistical Tests for Fiscal   $0                $0             $0      $0    9/11/03
                          Year 2003 Cost and Revenue
                          Analysis - Northern New Jersey District
          FF-AR-03-373    Audit of Statistical Tests for Fiscal       $0            $0             $0      $0    9/30/03
                          Year 2003 Cost and Revenue
                          Analysis - Westchester District
          FT-AR-03-009    Employee Accounts Receivable                $0            $0             $0      $0    5/12/03
          FT-AR-03-010    Government Performance and Results $0                     $0             $0      $0    6/20/03
                          Act Implementation at the United
                          States Postal Service
          FT-AR-03-011    Propriety of Postal Service             $36,714           $0       $90,535       $0    8/21/03
                          Utility Payments
          FT-AR-03-012    Independent Report on                       $0            $0             $0      $0    9/10/03
                          Withholdings and Contributions for
                          Health Benefits, Life Insurance,
                          Retirement, and Employee
                          Headcount Data
          FT-AR-03-013    Segregation of Duties Over Real             $0            $0             $0      $0    9/30/03
                          Estate Tax Payment Schedules for
                          Leased Facilities
          FISCAL YEAR 2003 PROTECTIVE REVIEWS
          PR-MA-03-001    Woburn Center Station                       $0            $0             $0      $0    6/13/03
          PR-MA-03-002    Woodside Plaza Station                      $0            $0             $0      $0    6/19/03
          PR-MA-03-003    Costa Mesa Main Post Office                 $0            $0             $0      $0    7/25/03
          PR-MA-03-004    Upper Marlboro Station                      $0            $0             $0      $0    7/25/03
          PR-MA-03-005    Hazelwood Station                           $0            $0             $0      $0    8/13/03
          PR-MA-03-006    Colora, Maryland Post Office                $0            $0             $0      $0    8/27/03
          PR-MA-03-007    Stafford Post Office                        $0            $0             $0      $0    8/29/03
          PR-MA-03-008    Bel Air Post Office                         $0            $0             $0      $0     9/4/03
          PR-MA-03-009    Rome, Georgia Post Office                   $0            $0             $0      $0     9/8/03




PAGE 52   APPENDICES
                                                                               Recommend
Report          Subject Title/                     Questioned   Unsupported   Funds Put to                 Issue
Number          Project Type                            Costs         Costs     Better Use       Other      Date
PR-MA-03-010    Bowie Post Office                         $0            $0             $0          $0    9/10/03
PR-MA-03-011    Owings Mills Post Office                  $0            $0             $0          $0    9/11/03
PR-MA-03-012    Southside Post Office                     $0            $0             $0          $0    9/15/03
PR-MA-03-013    Chatsworth, Georgia Post Office           $0            $0             $0          $0    9/26/03
PR-MA-03-014    Azusa Post Office                         $0            $0             $0          $0    9/29/03
PR-MA-03-015    Uncasville Post Office                    $0            $0             $0          $0    9/30/03
CONTRACTING AND FACILITIES
CA-AR-03-002    Common Area Maintenance                   $0            $0             $0          $0    7/15/03
                Charges
CA-CAR-03-014   Evaluation of Equitable            $703,466             $0             $0          $0     5/6/03
                Adjustment
CA-CAR-03-015   Evaluation of Proposal           $60,825,861     $8,414,595            $0          $0     5/6/03
CA-CAR-03-016   Evaluation of Lease Costs            $13,848             $0            $0          $0    5/19/03
CA-MA-03-008    Supplier Certification                    $0            $0             $0          $0    6/20/03
CA-MA-03-009    Management of Facility                    $0            $0             $0          $0    9/30/03
                Lease Program
IR-CAR-03-001   Evaluation of System                      $0            $0             $0          $0    6/20/03
IR-CAR-03-002   Evaluation of Incurred Costs              $0            $0             $0          $0    7/15/03
IR-CAR-03-003   Evaluation of Incurred Costs       $811,589             $0             $0          $0    7/15/03
IR-CAR-03-004   Evaluation of Incurred Costs              $0            $0             $0          $0    7/31/03
IR-CAR-03-005   Evaluation of Equitable                   $0            $0             $0          $0    8/12/03
                Adjustment
IR-CAR-03-006   Evaluation of Proposal            $7,289,600            $0             $0          $0    8/12/03
IR-CAR-03-007   Evaluation of Incurred Costs              $0            $0             $0          $0    8/19/03
IR-CAR-03-008   Evaluation of Lease                 $87,947        $84,884             $0          $0    9/22/03
                Operating Costs
IR-CAR-03-009   Evaluation of Interim Invoices            $0            $0             $0          $0    9/25/03
IR-CAR-03-010   Evaluation of Termination           $95,663             $0             $0          $0    9/26/03
                Settlement
IR-CAR-03-011   Evaluation of Equitable             $98,569             $0             $0          $0    9/30/03
                Adjustment
FINANCIAL MANAGEMENT TOTALS                 $ 69,963,257        $8,499,479      $90,535      $106,161


TECHNOLOGY
INFORMATION SYSTEMS
IS-AR-03-005    General Controls                          $0            $0             $0          $0    5/12/03
IS-AR-03-006    Server Security Testing                   $0            $0             $0          $0    8/15/03
IS-AR-03-007    Mainframe Product Conversion and          $0            $0             $0          $0    8/15/03
                Implementation Process
IS-AR-03-008    General Controls                          $0            $0             $0          $0    9/30/03
IS-CS-03-002    Server Security Testing                   $0            $0             $0          $0    4/30/03
IS-CS-03-003    General Controls                          $0            $0             $0          $0    9/29/03
OE-MA-03-004    Warehousing of New and Used               $0            $0             $0          $0     4/9/03
                Computer Equipment in Raleigh,
                North Carolina
ECOMMERCE
OE-AR-03-006    Retail Data Mart System - Data            $0            $0             $0          $0    9/10/03
                Integrity and Expected Benefits
OE-AR-03-007    Financial Performance of eCommerce $0                   $0             $0          $0    9/30/03
                Initiatives - NetPost Services Program
OE-MA-03-005    Postal Service’s Procedures to Validate $0              $0             $0          $0    5/21/03
                Change-of-Address Orders


                                                                                                                   PAGE 53
                                                                                       Recommend
          Report          Subject Title/                   Questioned   Unsupported   Funds Put to              Issue
          Number          Project Type                          Costs         Costs     Better Use    Other      Date
          DEVELOPMENTAL
          DA-AR-03-004    Follow-up on the Information            $0            $0             $0       $0     5/7/03
                          Platform Program
          DA-AR-03-005    Wide Field of View Camera Program       $0            $0             $0       $0    6/18/03
          DA-AR-03-006    Operational Status of the Mailing       $0            $0             $0       $0     9/9/03
                          Evaluation, Readability, and Lookup
                          Instrument Program
          DA-AR-03-007    Delivery Bar Code Sorter-Expanded       $0            $0             $0       $0    9/30/03
                          Capability
          TECHNOLOGY TOTALS                                      $0             $0            $0        $0


          LABOR MANAGEMENT
          HUMAN RESOURCE PROCESS REVIEWS
          HK-AR-03-002    Shared Service Center Injury            $0            $0             $0       $0    6/19/03
                          Compensation Program
          HK-AR-03-003    Southeast Area Employees on the         $0            $0             $0       $0     8/8/03
                          Periodic Roll with No Wage Earning
                          Capacity or Reemployment
                          Determination
          LH-AR-03-010    Review of Facility Conditions at the    $0            $0             $0       $0    6/30/03
                          Groton, Connecticut, Main Post
                          Office
          LH-AR-03-011    Capping Report on the Postal            $0            $0             $0       $0     9/8/03
                          Service’s Sexual Harassment
                          Prevention Measures in 18 District
                          Offices
          LH-AR-03-012    Postal Service and Union Labor          $0            $0             $0       $0    9/30/03
                          Relations
          LABOR MANAGEMENT TOTALS                                $0             $0            $0        $0


          OVERSIGHT
          SA-AR-03-002    Postal Inspection Service Controls      $0            $0             $0       $0    5/15/03
                          Over Firearms Inventory
                          Reconciliation
          SA-AR-03-003    Postal Inspection Service Tracking of $0              $0             $0       $0    6/13/03
                          Investigative Workhours and Activity
          SA-AR-03-004    Postal Inspection Service Law           $0            $0             $0       $0     8/4/03
                          Enforcement Staffing Requirements
          SA-AR-03-005    Postal Inspection Service Resource      $0            $0             $0       $0    8/20/03
                          Allocations for Fiscal Year 2003
          SA-AR-03-006    Postal Inspection Service Controls      $0            $0             $0       $0    5/15/03
                          Over Firearms - Reconciliation of
                          Sturm, Ruger and Company, Inc.
                          Firearms
          OVERSIGHT TOTALS                                       $0             $0            $0        $0

          OIG TOTALS                                   $69,963,257      $8,499,479 $179,111,009 $1,230,161




PAGE 54   APPENDICES
APPENDIX B

Findings of Questioned Costs
For the period April 1, 2003, through September 30, 2003
OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                  Unsupported
                                                                                                         Costs
                                                                                        Total       Included in
                                                                Number of         Questioned       Questioned
Description                                                       Reports              Costs             Costs
A. Reports for which no management decision was made at               22      $166,163,999      $122,592,688
   the beginning of the reporting period
B. Reports requiring management decision that were issued              9       $69,963,257        $8,499,479
   during the reporting period

TOTALS                                                                31      $236,127,256      $131,092,167

C. Reports for which a management decision was made                   11      $147,594,054      $118,772,005
   during the reporting period (i+ii)*
(i) Dollar value of disallowed cost                                            $22,921,867         $765,400
(ii) Dollar value of cost not disallowed**                                    $124,672,187      $118,006,605

D. Reports for which no management decision was made                  20       $88,533,202       $12,320,162
  by the end of the reporting period.
  Negotiations are ongoing.

E. Reports for which no management decision was made                   4        $7,116,584        $1,744,745
   within six months of issuance
   (See Note 1 for a list of individual reports)***

F. Reports for which no management decision was made                   8       $11,490,075        $2,075,938
   within one year of issuance
   (See Note 2 for a list of individual reports)


Note 1 - Reports for which no management decision was made within six months of issuance:

                                                                                                  Unsupported
                                                                                                         Costs
                                                                                      Total         Included in
              Report/                                                           Questioned         Questioned
Report Date   Case Number            Project Type                                    Costs               Costs
10/16/2002    CA-CAR-03-002          Contract Audit                             $343,759                  $0
2/11/2003     CA-CAR-03-011          Contract Audit                            $4,028,935                 $0
2/26/2003     CA-CAR-03-012          Contract Audit                            $1,478,596          $479,451
3/31/2003     HK-MA-03-002           Postal Service’s Death Benefit            $1,265,294         $1,265,294
                                     Payments to the Decedent’s Survivor(s)

OIG TOTAL                                                                     $7,116,584          $1,744,745




                                                                                                                  PAGE 55
          Note 2 - Reports for which no management decision was made within one year of issuance:

                                                                                                    Unsupported
                                                                                                           Costs
                                                                                            Total     Included in
                        Report/                                                       Questioned     Questioned
          Report Date   Case Number         Project Type                                   Costs           Costs
          2/29/2000     TR-AR-00-005        Southwest Area Expenditures for            $848,000               $0
                                            Extra Highway Trips Using Leased
                                            Equipment
          5/17/2000     CA-AR-00-001        United States Postal Service Warranty      $977,598               $0
                                            Repair of Tractors
          3/25/2002     CA-CAR-02-032       Contract Audit                            $772,214              $0
          5/9/2002      CA-CAR-02-041       Contract Audit                              $96,324        $20,202
          6/28/2002     CA-CAR-02-045       Contract Audit                           $1,053,263       $134,340
          8/2/2002      FT-MA-02-004        Terminated Station Contract                 $58,248        $58,248
          9/13/2002     CA-CAR-02-051       Contract Audit                            $620,681        $187,271

          OIG TOTAL                                                                  $4,426,328      $400,061
                                                                                                    Unsupported
                                                                                                           Costs
                                                                                            Total     Included in
                        Report/                                                       Questioned     Questioned
          Report Date   Case Number         Project Type                                   Costs           Costs
          11/17/1999    181-1294644-AC(1)   Contract Audit                           $7,063,747     $1,675,877

          INSPECTION SERVICE TOTAL                                                   $7,063,747     $1,675,877


          TOTAL                                                                     $11,490,075     $2,075,938



          *Questioned costs of $491,590 identified in Audit Report CA-CAR-02-026 have been removed
          from the beginning balance. These costs have been included in the $811,589 of questioned costs
          identified in Audit Report IR-CAR-03-003 issued during this reporting period.
          **These costs include $117,828,789 in questioned costs for a contract proposal. Documentation
          was later provided to support the questioned costs and subsequently the contract was awarded to
          another vendor.
          ***The reported amount includes $1,265,294 in questioned costs that are currently being resolved
          and actual amount cannot be determined at this time.




PAGE 56    APPENDICES
APPENDIX C

Recommendations That Funds
Be Put to Better Use
For the period April 1, 2003, through September 30, 2003
OFFICE OF INSPECTOR GENERAL
                                                                                 Number of
Description                                                                        Reports       Dollar Value
Reports for which no management decision was made at the beginning
of the reporting period*                                                                  8   $136,439,266
Reports requiring management decision that were issued during the reporting period        9   $179,111,009

TOTALS                                                                                   17   $315,550,275

Reports for which a management decision was made during the report period               6     $155,861,265
(i)Value of recommendations agreed to by management                                           $153,329,340
(ii)Value of recommendations that management did not agree                                      $2,531,925
Reports for which no management decision was made by the end of the reporting period.* 11     $159,689,010
Reports for which no management decision was made within six months of issuance
(See Note 1 for a list of individual reports)                                           4       $7,948,777
Reports for which no management decision was made within one year of issuance
(See Note 2 for a list of individual reports)                                           3     $126,725,169
Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                 Recommend
Report                                                                                          Funds Put to
Date          Case Number                Subject                                                  Better Use
1/29/2003     TD-MA-03-001            New York Metro Area Operational Use of Trailers            $2,495,344
3/28/2003     TD-AR-03-007            Highway Network Scheduling - Capital Metro Area             1,144,218
3/28/2003     TD-AR-03-008            Highway Network Scheduling - New York Metro Area              287,981
3/31/2003     TD-AR-03-009            New York Metro Area Trailer Acquisition - Lease versus Buy 4,021,234

TOTAL                                                                                           $7,948,777

Note 2 - Reports for which no management decision was made within one year of issuance:

                                                                                                 Recommend
Report                                                                                          Funds Put to
Date          Case Number                Subject                                                  Better Use
3/29/2002     TD-AR-02-002            Trailer Lease Justification                              $82,349,739
9/29/2000     MK-AR-00-001            Review of Stamp Fulfillment Services Performance          28,457,395
7/27/2001     TR-AR-01-004            Bulk Fuel Purchase Plan                                   15,918,035

TOTAL                                                                                         $126,725,169




*Included herein are amounts where management agreed to take the recommended corrective action
but could not comment on some of the potential savings until analyses were completed. The majority
of identified savings were agreed to and decisions were reflected in a prior reporting period.




                                                                                                                PAGE 57
          APPENDIX D

          Reports with Significant Recommendations
          Pending Corrective Actions
          For the period April 1, 2003, through September 30, 2003
          This appendix lists reports containing significant recommendations pending final action by
          management.

          OFFICE OF INSPECTOR GENERAL
          Report             Report                                                    Number of           Issue
          Number             Title                                                     Recommendations      Date
          LM-MA-99-002       Effectiveness of USPS Grievance Arbitration Procedures         2            3/26/99
          LR-MA-99-001       Grievance Arbitration Management Information                   2            3/26/99
          TR-AR-99-003       Emergency and Extra Trip Expenditures on Highway Routes        6            9/29/99
          RP-MA-00-001       Indefinite Quantity Contracts                                  1            11/8/99
          TR-AR-00-005       Southwest Area Expenditures for Extra Highway Trips            3            2/29/00
                             Using Leased Equipment
          CA-MA-00-001       Contract Audit Practices                                       6            3/31/00
          DA-AR-00-002       Tray Management System                                         5            3/31/00
          TR-AR-00-009       Extra Trips Expenditures within the Mid-Atlantic Area          2            7/27/00
          AC-AR-00-004       Use of Robotic Tray Handling System                            2            9/29/00
          DA-AR-00-006       Point of Service ONE Stage II                                  2            9/29/00
          MK-AR-00-001       Review of Stamp Fulfillment Services Performance Measures      1            9/29/00
          OV-AR-00-005       Review of the United States Postal Inspection Service          2            9/29/00
                             Budget Process
          DA-AR-01-004       Postal One! Business Customer Support Systems Phase One        5             4/9/01
          IS-AR-01-001       Network Security                                               1            4/18/01
          OV-AR-01-002       Inspection Service Support to Postal Service Threat            1            4/30/01
                             Assessment Teams
          TR-LA-01-001       Review of a Transportation Agreement                           2            6/26/01
          TR-AR-01-004       Bulk Fuel Purchase Plan                                        5            7/27/01
          TR-MA-01-002       Excise Taxes and Third Party Ground Handling Costs under a     1             8/8/01
                             Transportation Agreement
          TR-MA-01-003       Security Risks Associated with a Transportation Agreement      1            9/27/01
          OV-AR-01-004       Postal Inspection Service Fraud Against Government Program     1            9/28/01
          IS-AR-02-001       Fiscal Year 2001 Information System Controls                   1            11/8/01
          IS-AR-02-003       Review of the Facilities Management System for Windows         4            2/22/02
          LH-MA-02-003       Review of Decontamination Activities at the Pentagon Station   2            3/12/02
          TD-AR-02-002       Trailer Lease Justification                                    2            3/29/02
          EM-AR-02-009       Public-Key Infrastructure Initiatives by the Postal Service    1            3/29/02
          CQ-MA-02-002       Review of Contracts Associated with Biohazard Threat           1            3/29/02
          IS-AR-02-007       Network General Controls                                       2             4/3/02
          LH-AR-02-003       Southwest Area's Efforts in Obtaining Appropriate              2             5/8/02
                             Chargeback Credits for Identified Wage Compensation
                             Overpayment and Refundable Disbursements
          OV-AR-02-003(R)    Postal Inspection Service Health Examination Program           3            7/30/02
          EM-AR-02-012       Review of eBusiness Agreements                                 7             7/9/02
          TD-MA-02-003       New York Metro Area Trailer Acquisition Requirements           2            7/10/02
          LH-AR-02-004       Postal Service's Corporate Succession Planning Process         5             9/3/02
          DA-AR-02-008       Postal Service's Efforts to Implement Prevention and           1             9/4/02
                             Detection Technology
          DA-MA-02-001       Biohazard Detection System                                     6            9/24/02
          DA-MA-02-002       Biohazard Filtration System                                    3            9/24/02
          FT-AR-02-015       Payments to a Utility Company                                  1            9/26/02
          FT-AR-02-016       Advanced Annual Leave                                          1            9/26/02

PAGE 58   APPENDICES
Report         Report                                                     Number of             Issue
Number         Title                                                      Recommendations        Date
TD-AR-02-004   Voyager Card Control Weaknesses - Chicago                       1             9/26/02
CA-AR-02-004   Undefinitized Contract Actions                                  1             9/30/02
FT-AR-02-017   Effectiveness of the Postal Service's Asset Locator Program     3             9/27/02
IS-AR-02-015   Fiscal Year 2002 Information System Controls                    1             9/27/02
AC-MA-02-002   Review of Nonprofit Standard Mail                               1             9/30/02
CA-AR-02-005   Use of Noncompetitive Contracting Process for                   2             9/30/02
               Tabbing Systems Purchases
LH-AR-02-005   Associate Supervisor Program in the Great Lakes Area            2             9/30/02
TD-AR-02-005   Delivery Vehicle Gasoline                                       3             9/30/02
IS-AR-03-001   Network General Controls                                        6            10/24/02
TD-AR-03-001   New York Metro Area Trailer Acquisition - Safety and Length     2            10/28/02
FT-MA-03-001   Postal Service Payments to the Smithsonian Institution          2            11/19/02
TD-MA-03-001   New York Metro Area Operational Use of Trailers                 2             1/29/03
FT-AR-03-008   Fiscal Year 2002 Postal Service Financial Statements Audit -    2             1/30/03
               St. Louis Information Technology and Accounting
               Service Center
LH-AR-03-003   Sexual Harassment Prevention Measures in the Northern           1             1/30/03
               Virginia and Richmond Districts – Capital Metro Operations
DA-AR-03-002   Postal Automated Redirection System, Phase 1                    1             2/25/03
LH-AR-03-004   Sexual Harassment Prevention Measures in the Albany and         2             2/25/03
               Southeast New England Districts - Northeast Area
LH-AR-03-005   Sexual Harassment Prevention Measures in the Central Florida    1              3/5/03
               and South Georgia Districts - Southeast Area
LH-AR-03-006   Sexual Harassment Prevention Measures in the Greensboro         2              3/5/03
               and Harrisburg Districts – Eastern Area
LH-AR-03-007   Sexual Harassment Prevention Measures in the Dakotas            1              3/5/03
               and Portland Districts - Western Area
TD-AR-03-004   Address Change Service                                          5             3/12/03
LH-AR-03-008   Sexual Harassment Prevention Measures in the Oakland and        3             3/18/03
               Santa Ana Districts - Pacific Area
TD-AR-03-005   Vehicle Maintenance Facilities - Vehicle Inventory Control      3             3/19/03
               Weaknesses in the Chicago District
LH-AR-03-009   Sexual Harassment Prevention Measures in the Arkansas           3             3/25/03
               and Rio Grande Districts - Southwest Area
CQ-AR-03-001   Work Performed by Business Mail Entry Employees in the          2             3/28/03
               Seattle, Minneapolis, and Des Moines Bulk Mail Centers
TD-AR-03-007   Highway Network Scheduling - Capital Metro Area                 2             3/28/03
HK-MA-03-002   Postal Service’s Death Benefit Payments to                      1             3/31/03
               Decedent’s Survivor(s)
OE-AR-03-002   Retail Data Mart System - Security Issues                       4             3/31/03
TD-AR-03-008   Highway Network Scheduling - New York Metro Area                2             3/31/03
TD-AR-03-009   New York Metro Area Trailer Acquisition - Lease versus Buy      2             3/31/03
IS-AR-03-005   General Controls                                                1             5/12/03
SA-AR-03-003   Postal Inspection Service Tracking of Investigative Workhours   1             6/13/03
               and Activity
HK-AR-03-002   Shared Service Center Injury Compensation Program               2             6/19/03
FT-AR-03-010   Government Performance and Results Act Implementation           3             6/20/03
               at the United States Postal Service
LH-AR-03-010   Review of Facility Conditions at the Groton, Connecticut,       4             6/30/03
               Main Post Office
TD-AR-03-010   Highway Network Scheduling - Southwest Area                     2             7/11/03
AO-AR-03-001   Efficiency of Work Performed by Business Mail Entry Clerks      2             7/31/03
               Within the Los Angeles District
SA-AR-03-004   Postal Inspection Service Law Enforcement Staffing              2              8/4/03
               Requirements
SA-AR-03-005   Postal Inspection Service Resource Allocations for              1             8/20/03
               Fiscal Year 2003
FT-AR-03-011   Propriety of Postal Service Utility Payments                    2             8/21/03
LH-AR-03-011   Capping Report on the Postal Service’s Sexual Harassment        3              9/8/03
               Prevention Measures in 18 District Offices

                                                                                                        PAGE 59
          Report         Report                                                    Number of           Issue
          Number         Title                                                     Recommendations      Date
          TD-AR-03-012   Voyager Card Control Weaknesses - National Analysis              1           9/8/03
          DA-AR-03-006   Operational Status of the Mailing Evaluation, Readability,       4           9/9/03
                         and Lookup Instrument Program
          OE-AR-03-006   Retail Data Mart System – Data Integrity and Expected Benefits   1          9/10/03
          TD-AR-03-013   Highway Network Scheduling – Western Area                        2          9/23/03
          AO-AR-03-002   Efficiency of Work Performed by Business Mail Entry Clerks       2          9/25/03
                         in the San Francisco Business Mail Entry Unit
          SA-AR-03-006   Postal Inspection Service Controls Over Firearms –               2          9/26/03
                         Reconciliation of Sturm, Ruger and Company, Inc. Firearms
          TD-AR-03-014   Highway Network Scheduling - Southeast Area                      3          9/26/03
          AC-AR-03-006   Enhanced Carrier Route Standard Mail Worksharing Discounts       1          9/29/03
          AC-AR-03-007   Inventory Management – Maintenance Stockrooms                    1          9/30/03
          IS-AR-03-008   General Controls                                                 8          9/30/03
          LH-AR-03-012   Postal Service and Union Labor Relations                         5          9/30/03
          TD-AR-03-015   Highway Network Scheduling – Eastern Area                        2          9/30/03




PAGE 60    APPENDICES
APPENDIX E

Investigative Statistics1
For the period April 1, 2003, through September 30, 2003
OFFICE OF INSPECTOR GENERAL
Statistics
Arrests                                                                     19
Information/Indictments                                                     16
Convictions2/Pretrial Diversions                                            13
Suspension/Debarments
    Individuals                                                              8
    Firms                                                                    8
Administrative Actions
    Postal Service Employee                                                  8
    Contractor                                                               6
Fines, Restitution, and Recoveries                                  $5,036,696
    Amount to Postal Service3                                       $1,618,531




1
    Statistics include joint investigations with other federal law enforcement agencies.
2
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
3
    Amount included in total Fines, Restitution, and Recoveries
                                                                                                         PAGE 61
          APPENDIX F

          Summary of Postal Service Investigative
          Activities Under 39 USC § 3013
          For the period April 1, 2003, through September 30, 2003

          The Postal Reorganization Act requires the Postmaster General to furnish information on the
          investigative activities of the Postal Service on a semiannual basis. With passage of the
          Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
          ing obligations were changed.
          The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
          the Board of Governors, expands the subject matter that must be reported, and revises the report-
          ing schedule to coordinate with the OIG Semiannual Report to Congress. The information in
          the report includes actions directed at combating crimes involving the mail; costs and expendi-
          tures devoted to Postal Service investigative activities; use of subpoena power; and any additional
          information the OIG may require.

          ABUSE OF MAILS
          The Postal Service reports to the Office of Inspector General information related to investigative
          activities designed to protect the public against unscrupulous mailers perpetrating fraudulent
          schemes. The following information summarizes the administrative and judicial actions initiated
          and resolved during the reporting period. These actions include the issuance of cease and desist
          orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking
          to intercept fraudulent mailings.

          INSPECTION SERVICE
                                                                              False            Cease &
          Type of                              Complaints     Consent         Representation   Desist
          Scheme                               Filed          Agreements      Orders           Orders
          Advance fee                           1               2               1                2
          Boiler rooms/Telemarketing            1               1               0                1
          Contest/Sweepstakes                   0               1               1                2
          Employment                            0               0               0                0
          False Billings                        6               5               2                6
          Fraud – Internet Schemes              4               4               1                4
          Lotteries (foreign and domestic)     40               1              40                1
          Merchandise:
             Failure to pay                     0               0               0               0
             Misrepresentation                  0               0               0               0
          Miscellaneous                         1               1               0               1
          Work at home                         37              38              10              39
          TOTAL                                90              53              55              56


          OTHER ADMINISTRATIVE ACTIONS
          Administrative Action Requests                      124
          Temporary Restraining Orders Requested                1
          Temporary Restraining Orders Issued                   1
          Civil Injunctions (1345) Requested                    1
          Civil Injunctions (1345) Issued                       1
          Cases Using Direct Purchase Authority                 0
          Refusals of Direct Purchase Authority                 0
          Civil Penalties (Section 3012) Imposed                4
          Expenditures Incurred for:
            Test Purchases                                      0
            Expert Testimony                                    0
            Witness Travel                                      0
          Withholding Mail Orders Issued                       64
          Voluntary Discontinuances                           176
PAGE 62    APPENDICES
POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
The Postal Service reports to the Office of Inspector General information on the number of cases
in which the Postal Service issued administrative subpoenas in connection with deceptive mail-
ing. The following section identifies the number and nature of cases in which the Postal Service
exercised this authority to request relevant business and associated records.
Case Number           Date Issued      Scheme
USPS-03-008           04/15/03         Failure to Render
USPS-03-009           04/30/03         Financial
USPS-03-010           04/30/03         Financial
USPS-03-012           05/27/03         Failure to Render
USPS-03-011           06/12/03         False Representation


FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
The Postal Service reports to the Office of Inspector General information related to the amount
of financial expenditures and obligations incurred pursuing the investigative activities of the
Postal Service. Information related to these activities is summarized below.
Type                                Semi Annual Report
Personnel                              $152,356,518
Nonpersonnel                            $37,992,206
Total Expenditures                     $190,348,724
Capital Obligations                      $3,518,392


OTHER INVESTIGATIVE ACTIVITIES
The Postal Service also reports to the Office of Inspector General additional information
related to significant investigative activities and other investigative matters. This section
outlines a number of significant investigative activities the Postal Service has initiated and is
pursuing, to include the Mail Task Forces and the Deceptive Mail Enforcement Team. Office
of Inspector General criminal statistical information is summarized in Appendix E.

MAIL SECURITY TASK FORCE
The Postmaster General established the Mail Security Task Force in October 2001, and appoint-
ed the Chief Postal Inspector to lead the team. The task force is committed to reducing the risks
to the safety and security of postal employees and customers. The Steering Committee, compris-
ing Postal Inspectors, senior level postal executives, and presidents of the labor unions and man-
agement associations, meets on a regular basis. Seven working groups are contained within the
task force including Mail Center Security, Contingency Planning System-Wide, Mail
Preparation, Mail Screening, Communicating/Messaging, Safety and Security in the Workplace
Environment, and Mail Transportation Security. All of the working groups have presented find-
ings to the Steering Committee, which is in the process if issuing an interim status report.




                                                                                                     PAGE 63
          INTERNATIONAL SECURTIY GROUPS
          The Inspection Service is an active participant in two international groups focused on security.
          The International Security Group targets initiatives to improve the safety, security, and reliability
          of international mail products for the U.S. Postal Service. The group also develops strategies and
          initiatives to improve quality of service and security of mail for the 189 member countries of the
          Universal Postal Union. The Postal Security Action Group of the Universal Postal Union focus-
          es on problems and issues affecting the safety, security, and integrity on international communica-
          tions products. This group is chaired by the Chief Postal Inspector.

          DECEPTIVE MAIL PREVENTION
          The Deceptive Mail Prevention and Enforcement Act, which became effective April 12, 2000,
          subjects violators to civil penalties in addition to Cease and Desist Orders and False Representation
          Orders. To support this new law, the Postal Inspection Service created the Deceptive Mail
          Enforcement Team to identify violators and ensure swift, appropriate, investigative attention.
          Questionable promotions identified by team, as well as those received as consumer complaints, are
          examined for compliance. During fiscal year 2003, 83 promotions were reviewed for possible
          violations, and 12 have been referred for preliminary investigative attention.

          INTERNET FRAUD PREVENTION
          The Internet is teeming with schemes, and swindlers have learned how easy it is to exploit innocent
          victims. Fraud on the Internet often results in mail fraud, as cyber scammers use the mail to receive
          payments or ship items. As a result of the growing trend among fraudsters to use the Internet, the
          Postal Inspection Service participates in a multi-federal project known as the Internet Fraud
          Complaint Center, which was established by the Federal Bureau of Investigation and National White
          Collar Crime Center. The project is aimed at stemming Internet fraud by gathering, analyzing, and
          referring Internet complaints. The Internet Fraud Complaint Center offers a central repository for
          complaints related to Internet fraud.

          DEFINITIONS OF SCHEMES
          Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
          Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and
          telephone solicitors who use high-pressure techniques to persuade consumers to respond to bogus
          offers.
          Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
          of money, gifts or other items of value. “Prizes” are either never shipped or are inferior to what
          was promised.
          Employment. Soliciting money for information or assistance in obtaining nonexistent or
          misrepresented jobs.
          False billings. Mailing solicitations in the guise of billings.
          Fraud Internet Schemes. Fraudulent schemes using the Internet with a nexus to the mail.
          Lottery. Advertisements seeking money or property by mail for participation in schemes to win
          prizes through chance.
          Merchandise failure to pay. Mail order merchandise that is acquired without providing
          payment.
          Merchandise misrepresentation. Mail order merchandise or services are materially
          misrepresented in advertising.
          Miscellaneous. Any other scheme not described in a specific category.
          Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 64   APPENDICES
APPENDIX G

Closed Congressional and Board of Governors
Inquiries
For the period April 1, 2003, through September 30, 2003
This appendix lists the 29 Congressional and Governors inquiries the OIG closed during this
reporting period. The OIG reviewed these inquiries to help identify systemic issues and to
determine the need for future Postal-wide audits.


CONGRESSIONAL
PERFORMANCE
Requestor                   Allegations/Concern                                                         Response Date
Senator, North Carolina     Allegation of mail tampering                                                 14-May-03
Senator, Mississippi        Allegations of customer being overcharged                                     25-Jun-03
Representative, California Allegation of difficulties with claim regarding                                 08-Jul-03
                           goods damaged during shipment
Senator, Mississippi        Allegation of international mail not being delivered                         11-Aug-03
                            and contents opened and damaged
Senator, Mississippi        Allegation of international mail not being delivered                         11-Aug-03
Representative, Virginia    Allegation of unprofessional conduct by a letter carrier                     18-Aug-03
Representative, Ohio        Allegation of serious maintenance concerns regarding USPS vehicles            02-Sep-03

FINANCIAL MANAGEMENT
Requestor                   Allegations/Concern                                                         Response Date
Representative, Kansas      Allegation of procedural flaws in the solicitation and                        29-Apr-03
                            contract award processes
Senator, Colorado           Request for review of Postal Service’s bid process                             07-Jul-03
Senator, California         Allegation of unfair penalty for an administrative error                     18-Aug-03
                            regarding military retirement
Representative, Virginia    Allegation of non-reimbursement for damage to a package                      18-Aug-03
Representative,             Allegation of fraudulent recording of time by managerial staff                23-Sep-03
Pennsylvania

LABOR MANAGEMENT
Requestor                   Allegations/Concern                                                         Response Date
Representative, Texas       Allegation of harassment                                                      29-Apr-03
Representative, California Allegation of breach of employment offer                                       17-Jun-03
Representative,             Allegation of supervisory personnel submitting false statements               27-Jun-03
Massachusetts
Representative,             Allegation of favoritism, racial inequality, and hostile work environment      01-Jul-03
North Carolina
Senator, California         Allegation of abuse of authority and reprisal                                  16-Jul-03
Representative, Missouri    Allegation of hostile work environment and inconsistent                      05-Aug-03
                            policy enforcement
Representative,             Allegation of managerial harassment                                           24-Sep-03
Massachusetts
Representative, Texas       Allegation of managerial harassment                                           25-Sep-03




                                                                                                                        PAGE 65
          OVERSIGHT OF INSPECTION SERVICE
          Requestor                  Allegations/Concern                                               Response Date
          Representative, New York Request to review Inspection Service’s interpretation of laws        29-May-03
                                   which govern reimbursement and overtime hours worked

          OTHER SIGNIFICANT ISSUES
          Requestor                  Allegations/Concern                                               Response Date
          Senator, California        Request for assistance regarding OIG’s response to a complaint      01-Apr-03
          Senator, Michigan          Allegation that OIG failed to properly investigate a hotline        29-Apr-03
                                     complaint regarding safety issues
          Representative, Florida    Request for status of action taken on hotline complaint            29-May-03
          Senator, California        Allegation of misconduct by an OIG investigator                     19-Jun-03
          Senator, California        Request for assistance with OIG response to previous complaints     19-Jun-03
          Senator, Florida           Allegation of OIG wasting money on teambuilding activities           15-Jul-03
          Representative,            Allegation of identify theft through stolen mail                   29-Aug-03
          Massachusetts
          Representative,             Request for assistance regarding appeals process for employee      03-Sep-03
          District of Columbia




PAGE 66   APPENDICES
Notes
Notes
